<html>
<title> - CLIMATE CHANGE: IT'S HAPPENING NOW</title>
<body><pre>[Senate Hearing 113-736]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-736

                   CLIMATE CHANGE: IT'S HAPPENING NOW

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2013

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys


                               
                               
                               
                               
                               
                               

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-976 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York         DEB FISCHER, Nebraska
MAZIE K. HIRONO, Hawaii

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 18, 2013
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     2
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    37
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    39
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    41
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    42
Hirono, Hon. Maize K., U.S. Senator from the State of Hawaii.....    45
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......    48
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    49
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......    51
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    52
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...    56
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    57

                               WITNESSES

Cullen, Heidi, Ph.D, Chief Climatologist, Climate Central........    59
    Prepared statement...........................................    61
Nutter, Franklin W., President, Reinsurance Association of 
  America........................................................    82
    Prepared statement...........................................    84
Golden, KC , Senior Policy Advisor, Climate Solutions............   127
    Prepared statement...........................................   129
    Responses to additional questions from Senator Boxer.........   148
    Response to an additional question from Senator Vitter.......   152
Furchtgott-Roth, Diana, Senior Fellow, Manhattan Institute.......   155
    Prepared statement...........................................   157
Murphy, Robert P., Senior Economist, Institute For Energy 
  Research.......................................................   169
    Prepared statement...........................................   171
Responses to additional questions from:
    Senator Whitehouse...........................................   179
    Senator Vitter...............................................   180
Francis, Jennifer, Research Professor, Institute of Marine and 
  Coastal Sciences, Rutgers University...........................   245
    Prepared statement...........................................   248
    Response to an additional question from Senator Boxer........   254
Responses to additional questions from:
    Senator Whitehouse...........................................   255
    Senator Udall................................................   257
Doney, Scott C., Ph.D, Woods Hole Oceanographic Institution......   259
    Prepared statement...........................................   261
Responses to additional questions from:
    Senator Boxer................................................   277
    Senator Whitehouse...........................................   279
Leinen, Margaret, Ph.D, Executive Director of Harbor Branch 
  Oceanographic Institute, Vice Provost for Marine and 
  Environmental Initiatives, Florida Atlantic University.........   284
    Prepared statement...........................................   286
    Response to an additional question from Senator Boxer........   292
    Response to an additional question from Senator Whitehouse...   295
Pielke, Roger Jr., Professor, Center for Science and Technology 
  Policy Research, University of Colorado........................   299
    Prepared statement...........................................   301
    Responses to additional questions from:
        Senator Whitehouse.......................................   312
        Senator Vitter...........................................   312
Roy W. Spencer, Ph.D, Principal Research Scientist IV, Earth 
  System Science Center, The University of Alabama In Huntsville.   314
    Prepared statement...........................................   316
Responses to additional questions from:
    Senator Whitehouse...........................................   328
    Senator Vitter...............................................   331

                          ADDITIONAL MATERIAL

Senators letter to Assistant Administrator, Hon. Gina McCarty....   354
Articles:
    Gallup: Americans Say Economy Is Top Worry for Nation's 
      Future.....................................................   361
    Bureau of Labor Statistics, U.S. Department of Labor, News 
      Release....................................................   366
    Wall Street Journal: California's Cap-and-Tax Grab...........   385
United States Senate Environmant and Public Works Committee 
  Minority Report: Critical Thinking on Climate Change...........   386
Energy & Commerce Committee, Ten Lessons of the Solyndra Failure.   409
U.S. Energy Information Adminitration, Today in Energy...........   411
Claude R. Lambe Charitable Foundation, 990-DF Return of Private 
  Foundation 2009................................................   413
LLoyds's Risk Index 2013.........................................   498
Economic Outcomes of a U.S. Carbon Tax (Full Report).............   545
National Climate Data Center, State of the Climate Global 
  Analysis - Annual 2012.........................................   640
Pew Research Center for the People & the Press, Deficit Reduction 
  Rises on Public's Agenda for Obama's second term...............   649
Why We Need a `Red Team' Approach in Climate Science, Richard 
  McNider & John Christy.........................................   655
Washington Post article; Solyndra: Politics Infused Obama Energy 
  Programs.......................................................   732

 
                   CLIMATE CHANGE: IT'S HAPPENING NOW

                              ----------                              


                        THURSDAY, JULY 18, 2013

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Vitter, Carper, Cardin, Sanders, 
Whitehouse, Udall, Gillibrand, Hirono, Inhofe, Barrasso, 
Sessions, Wicker, and Fischer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order.
    I got a call from Senator Inhofe and he said he is pulled 
between his duties at the Armed Services Committee and here and 
that he would hope when he arrived, because he has to go back 
and forth, that he could be recognized, whatever the list is. I 
said it was fine with me and that I would ask unanimous consent 
at the time. I just wanted to mention that to everybody. And I 
told him what would a hearing on climate change be without him 
and I certainly was encouraging him to come.
    So, today our hearing will focus on climate change and the 
serious threat it poses to our Nation. This is not a political 
hearing or a solutions hearing. It is a hearing where I hope we 
will listen to the experts.
    The body of evidence, to me, and I think we will learn 
today appears to be overwhelming, the world's leading 
scientists agree and predictions of the impact of climate 
change are coming true before our eyes.
    The issue has been a priority for me since I became 
Chairman of the Committee. How long ago was that? 2007. 2007. 
Because to me, climate change puts our environment and public 
health at risk and the long-term risks are enormous. And I 
remember that one of our first hearings at that time was about 
climate change.
    I am going to talk about what the scientists then told us 
would be happening and people were looking at the scientists 
like this cannot be possible. But I will tell you what they 
said then and we can all judge as to whether or not what they 
said is coming true.
    For example, Dr. Kevin Trenberth said it is very likely 
that hot extremes and heat waves will continue to become more 
frequent. He also said it is likely that tropical storms and 
hurricanes will become more intense and with much heavier 
rainfalls and thus the risk of flooding.
    Dr. Howard Frumkin in 2009 said with climate change, an 
increase in the severity, duration and frequencies of extreme 
heat waves is expected. Admiral Dennis McGinn said on the most 
basic level climate change has the potential to create 
sustained natural and humanitarian disasters on a scale and 
frequency beyond those we see today.
    So, in just a few short years since these predictions were 
made, we can just look at the window and see the evidence of 
climate change mounting around us. We can just look at what we 
are all voting for in terms of rebuilding our communities 
because of the intense weather.
    I have a chart of the Rockaways in 2012. Superstorm Sandy 
resulted in the loss of life, wiped out entire communities and 
caused approximately $65 billion of damage. We all remember 
that. And I have a chart of an Alaskan village. The impacts of 
climate change are being felt. The Arctic has lost more than 
one-third of total sea ice volume over the last decade, making 
Alaskan Native villages increasingly vulnerable to erosion and 
storms.
    And I will show you a chart of a California wildfire. These 
are raging. These are raging continually. Right now we have one 
in the county in which I live. We have seen large wildfires 
break out earlier in the season in California. Nineteen brave 
firefighters in Arizona tragically lose their lives. In 2012, 
New Mexico experienced the largest wildfire in State history. 
Colorado suffered the second large wildfire in State history. 
And Oregon has its largest wildfire since the 1860's.
    According to NOAA, the National Oceanic Atmospheric 
Administration, over the past 2 years there have been 25 
weather and climate disasters, each one costing more than $1 
billion. And the second panel, which Senator Whitehouse 
requested and will chair, will look at the State of our oceans.
    Climate change is real. This is what I believe. Human 
activities are the primary cause. That is what I believe. And 
the warming planet poses a significant risk to people and the 
environment. That is what I believe. And I believe all of that 
because the top scientists are telling us that.
    Today we will be hearing from scientists and other experts 
who will tell us about the growing impacts associated with 
climate change. We have an amazing first panel. I will hold off 
introducing them until we have all made our opening statements.
    And with that, I will call on Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Chairman Boxer and members of 
our Committee who are here today and our panel of witnesses who 
will be discussing a number of very important issues as they 
relate to climate science and our National Energy Policy.
    First let me say I think it is really unfortunate that we 
do not have any witnesses here from the Obama administration. 
Just weeks ago, President Obama announced a sweeping Climate 
Action Plan which will undoubtedly tighten the Federal 
Government's grip on our economy. It would have been very 
useful to hear from the Administration about how exactly they 
plan to implement this strategy. It also would have been useful 
to learn the exact the exact measurable benefits that the 
United States can expect from these actions.
    In relation to that, I would just like to put into the 
record, Madam Chair, a letter to you specifically requesting we 
have witnesses as part of this discussion and also a letter to 
President Obama, both are from mid-July, requesting that he 
make available witnesses from his Administration about this 
climate action plan. And I ask unanimous consent to submit 
these for the record.
    Senator Boxer. Without objection.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Vitter. Former Administrator Lisa Jackson testified 
before this Committee that U.S. action alone will not impact 
the climate. So, this begs a few questions, starting with have 
things changed so drastically in the last 4 years that now U.S. 
action alone can control the climate?
    The hearing is entitled Climate Change: It's Happening Now. 
I would also note it is interesting that it is not Global 
Warming: It's Happening Now. Maybe it is because given the 
earth's stagnant temperature for the last 15 years, a fact that 
is currently confounding climate scientists and modeling 
experts that predicted otherwise, that would have been an 
inconvenient title.
    The unique thing about the title of the hearing is that I 
think it could have been true and accurate and appropriate not 
only now but 50 years ago, and 500 years ago, and 5,000 years 
ago because climate change is happening, it is always 
happening, and there are many significant influences that are 
making it happen.
    Just a cursory glance at recent scientific literature shows 
that influences, major influences on climate, include solar 
activity, solar cycles, ocean currents, cosmic rays and 
greenhouse gases that occur naturally as well as those emitted 
from many countries including those who have no plans on 
regulatory change like China, India and Russia. These are 
factors impacting our climate over which we have little or no 
control.
    As the President unilaterally implements his regulatory 
agenda, I believe it is important to note what the Obama 
campaign does not want us to talk about. And I think it is very 
interesting. This was outlined in email last month by Ken 
Berlin, a Chair of President Obama's energy and environment 
team. And we have that detailed email and talking point memo 
here and I would like unanimous consent to submit this for the 
record.
    Senator Boxer. Without objection.
    [The referenced information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    Senator Vitter. Specifically, as outlined very clearly in 
this email, the President and his team do not want anyone to 
discuss ``straight economic arguments.' Well, I think on behalf 
of the American people we should absolutely talk about the 
economic impacts of these policies and have an honest 
discussion about that.
    They do not want to talk about ``regulations to control 
greenhouse gas emissions from power plants.' I think we should 
absolutely talk about these very significant and very 
economically detrimental regulations.
    They do not want to talk about, or they do not want to 
``over-promise on impacts taking action will have.' Again, 
maybe the reason is, as Lisa Jackson herself testified, such 
action would have no impact given that we in the United States 
alone do not control impacts on climate.
    They do not want to ``debate the validity or consensus of 
the science that has already settled.' I am interested in 
discussing exactly what part of science is settled in light of 
facts like climate models being wrong for the last 15 years 
regarding temperature and the fact that none of White House 
Science Advisor John Holdren's predictions on climates have 
come true, very dramatic predictions, just have not come true.
    They do not want to talk about ``the need to regulate 
industry and shut down power plants.' If I can ask for 
unanimous consent for one additional minute?
    Senator Boxer. I cannot do that because we have got 
everybody here to speak, we have got two panels. But if you 
could finish in a minute, it would be great.
    Senator Vitter. That is exactly what I asked for. Thank 
you.
    They do not want to talk about ``the need to regulate 
industry and shut down power plants.' And certainly no none 
should ``debate the increase in electricity rates.' Well, 
again, we think these are very important issues that should be 
discussed for the benefit of the American people.
    So, I look forward to this discussion. I look forward to 
digging down into the science, what exactly it suggests and 
does not suggest, and I certainly look forward to talking about 
economic impacts on the American people as they face very, very 
tough times.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Vitter follows:]

             Statement of Hon. David Vitter, U.S. Senator 
                      from the State of Louisiana

    Thank you, Chairman Boxer, the members of our Committee who 
are here today, and our panel of witnesses who will be 
discussing a number of very important issues as they relate to 
climate science and our national energy policy.
    It is unfortunate we don't have any witnesses here from the 
Obama administration. Just weeks ago, President Obama announced 
a sweeping climate action plan, which will undoubtedly tighten 
the Federal Government's grip on our economy. It would have 
been very useful to hear from the Administration how exactly 
they plan to implement this strategy. It would also have been 
helpful to learn the exact measurable benefits that the United 
States can expect from these actions.
    Former Administrator Lisa Jackson testified before this 
Committee that U.S. action alone will not impact the climate. 
This begs a few questions: Have things changed so drastically 
in the last 4 years that now U.S. action alone can control the 
climate? Are we now able to determine what weather events will 
happen and which ones won't?
    This hearing is entitled ``Climate Change: It's Happening 
Now.'' I would note that it has not been titled ``Global 
Warming: It's Happening Now.'' Maybe that would have been too 
ironic given the Earth's stagnant temperature for the past 15 
years, a fact that is currently confounding climate scientists 
and modeling experts who predicted otherwise.
    The unique thing about the title of our hearing is that we 
could have been holding this hearing 50 years ago, 500 years 
ago, 5 thousand years ago, or 5 million years ago, and it would 
have been just as accurate a statement. The climate has always 
and will always be changing because there are influences on our 
climate that will always be outside Congress's control.
    Just a cursory glance at recent scientific literature shows 
that influences on our climate include: solar activity; solar 
cycles; ocean currents; cosmic rays; and greenhouse gases that 
occur naturally as well as those emitted from other countries 
such as China, India, and Russia. These are factors impacting 
our climate over which we have little or no control.
    As the President unilaterally implements his regulatory 
agenda, I believe it is important to note what the Obama 
campaign does not want us to talk about. This was outlined in 
an email last month by Ken Berlin, a chair of President Obama's 
Energy & Environment Team. Specifically, President Obama does 
not want anyone to discuss:

     ``Straight economic arguments.'' I think the economic 
impacts of these policies are imperative to an honest 
discussion.
     ``Regulations to control greenhouse gas emissions from 
power plants.'' I think we absolutely should talk about the 
regulations so the American public can know exactly what the 
Administration has planned.
     ``Over promise on the impacts taking action will have.'' 
Maybe the reason is because Lisa Jackson said such action would 
have no impact, and I think that is something we should 
discuss.
     ``Debate the validity or consensus of the science that is 
already settled.'' I am interested in discussing exactly what 
part of the science is settled in light of the fact that 
climate models have been wrong for the last 15 years and that 
none of White House Science Advisor John Holdren's predictions 
on climate have come true.
     ``The need to regulate industry and shut down power 
plants.'' I, on the other hand, think that is exactly what the 
Administration is doing and I think we should talk about the 
impacts of shutting down power plants, putting our fellow 
Americans out of work, and increasing the price of energy for 
those that can least afford it.
     No one should ``Debate the increase in electricity 
rates'' and should ``instead pivot to health & clean air 
message.'' We should discuss the increase in electricity rates 
and, if we are going to discuss health, let's focus on the 
health effects of higher unemployment or the benefits to plant 
life from increased CO<INF>2</INF> .

    President Obama would like his supporters to ``suggest net 
job increases'' from all these new regulations and mandates. 
Perhaps because the reality is that all evidence actually 
suggests the President's agenda will be horrible economic 
policy over the long-term. So any assertion of net job increase 
is a flat out lie.
    Today, only 47 percent of Americans have a full time job, 
the workforce participation rate is at its lowest level since 
the Carter administration, and the national unemployment rate 
has exceeded 7.5 percent for the longest period since the 
Bureau of Labor Statistics started tracking it. At the end of 
President Obama's second term in office, the Federal debt will 
likely exceed $20 trillion, further frustrating America's 
future.
    Policy and economic decisions surrounding the issue of 
climate change should be based on being honest with our fellow 
Americans. That starts with being honest about the economic 
impacts of regulatory actions, avoiding sensationalism when it 
comes to the science, and taking a retrospective look at the 
models, predictions and claims over the last 30+ years to 
assess what impacts we can truly measure and what claims under 
the guide of ``science'' have been inaccurate.

    Senator Boxer. Thank you, Senator.
    I ask unanimous consent to place in the record two 
documents that refute what you said about temperatures 
remaining stagnant, one from the EPA, one from Climate Central.
    [The referenced information follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    I want to reiterate. We did get a letter asking for the 
Obama administration to be here and I responded that this is a 
committee of experts and we will do this. But as you know, we 
have been without a head of the EPA for the longest time in 
history. We are about to solve that, thank goodness, thank you. 
And then we will have someone who is going to carry out those 
rules.
    Now, we are going to go with the early bird rule, which is 
what the Committee asked to do. So, I am going to tell you who 
is going where with an exception for James Inhofe which, he is 
going to be called on when he arrives, when it is the 
Republican's turn.
    So, ours are Boxer, Cardin, Whitehouse, Hirono, Sanders and 
Carper. The Republicans are Vitter, Barrasso, Sessions, Fischer 
and Wicker.
    So, with that I will call on Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Well, thank you Madam Chair and I would ask 
consent that my full statement be included in the record.
    Senator Boxer. Without objection.
    Senator Cardin. And Madam Chair, let me thank you for 
calling this hearing. I was listening to the Ranking Member and 
I very much agree that we need to have Administration before 
this Committee. But I think it is refreshing that we have a 
hearing with the experts. We all want to be judged by the best 
science and I think this hearing gives us a chance to talk 
about the science of climate which I think is our 
responsibility. I applaud you for convening this hearing.
    Madam Chair, I also want to thank you for making the 
arrangements yesterday for the naming of the EPA building in 
honor of William Jefferson Clinton. It was an incredible day. 
We all talk about the fact that we can have respect for our 
environment and we can grow our economy and create jobs.
    But I think President Clinton said it best yesterday in 
that we cannot have a growing economy and create jobs unless we 
have a pro-environment agenda. If you do not respect our 
environment, you cannot grow the economy. And I think that was 
at least every telling to many of us and that is why we are so 
concerned about what is happening with global climate change.
    Let me just give you the example in Maryland. In 2007, 
Maryland decided to pass the toughest power plant emission laws 
on the East Coast of the United States. And the result was a $1 
billion investment in the Brandon Shores Coal Fired Power 
Plant. It created thousands of jobs. And Maryland has some of 
the cleanest burning power plants in the Nation. It was the 
right thing to do. The people of Maryland have benefited both 
from their environment and from their economy.
    But it is not enough because we are downwind from many 
other States. We need national policies to deal with these 
issues. And I applaud President Obama and the action he has 
taken with the authority that he has as President and the 
agencies involved to take action to clean up our environment 
through reduced carbon emissions and to deal with greenhouse 
gas problems.
    As the Chairman pointed out, this is an urgent situation. 
The wildfire photo that you showed was taken just 6 weeks ago. 
This is a current crisis that we are facing every day. Where we 
are here, we have experienced record numbers of heat days. Last 
summer, we had the largest number of above 95 degrees in the 
history of recordkeeping. So we see it every day.
    I am honored to represent the State of Maryland and my 
colleagues on this Committee have heard me talk about the 
Chesapeake Bay many time. Sea level rising is occurring. It is 
having a devastating impact on the people of Maryland and on 
this region. It is urgent that we act and we act now.
    President Obama was right to act. But we have a 
responsibility, as Members of Congress, to act, to pass the 
policies that will make this Nation safer. The interesting 
thing is, the same policy that will make us more secure by 
developing our own energy sources will create the jobs of the 
future, good paying jobs, grow our economy, will also protect 
our environment for future generations.
    We should take advantage of the opportunity now. And it 
should be judged by best science. And that is why this hearing 
is so important to the work of the Committee.
    Thank you, Madam Chair.
    [The prepared statement of Senator Cardin follows:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Thank you for holding this hearing, Madam Chairman. I 
appreciate the opportunity to come together today to talk about 
such a critical, timely issue. Today we will hear not only from 
the scientists who will explain to us how our climate and our 
oceans are changing. We will also hear from experts in policy 
and business who will tell us what we should be doing about 
these disturbing trends.
    This climate crisis is already happening, and the extreme 
weather that we have been experiencing as a nation makes it 
clear. Just last month, Colorado experienced the most 
destructive wildfire in the history of the state; spreading to 
100 square miles, it destroyed five hundred homes--all fueled 
by forests full of trees that are completely dried out from the 
ongoing drought.
    This is a tragic repeat of last summer's deadly wildfire 
season in our western states, also exacerbated by historic 
drought conditions. According to the National Oceanic and 
Atmospheric Administration, 2012 was the hottest year globally 
on record. There was a deadly wildfire season in our western 
states last summer. Right here in Washington, the summer of 
2012 brought us the longest recorded streak of 95-degree-plus 
days, and a resulting multi-day power outage that crippled the 
Washington area. In my home State of Maryland, hundreds of 
thousands of people were without power for days. Being without 
air-conditioning during a heat wave, without heat during a 
blizzard, without refrigeration for days at a time is no mere 
inconvenience--it is a public health issue. We must act to 
ensure the health and safety of our communities.
    These extreme weather events and increased temperatures are 
not theoretical. They are happening to us right now. When those 
of us in this hearing room leave the building today, we will be 
walking into a sustained heat wave. These extremes are the new 
normal, and they are affecting our nation's infrastructure, our 
environment, and our public health and safety. It is time that 
we get serious with three key responses to the climate threat. 
First, we must commit to investing in clean and efficient 
technologies to move away from the carbon-based energy that is 
contributing to the climate threat. Equally importantly, we 
must adapt our infrastructure and systems to these new 
conditions. And finally, we must put a price on carbon.
    Last month, President Obama took an important step forward 
by announcing his Administration's plan of action on climate 
change, including steps to cut carbon pollution from power 
plants, spur clean energy innovation, and dramatically reduce 
the pollution that fuels climate change and extreme weather. I 
applaud his efforts and his leadership on this issue, but the 
Administration cannot do it alone. We in Congress must be an 
active partner in reducing carbon emissions and protecting our 
communities from the devastating impacts of climate change.
    There are those who would have us believe that, despite the 
devastating impacts that we will hear about from our witnesses, 
addressing climate change is simply too expensive and not worth 
the financial costs. This is simply not true. Investing in 
clean energy technologies and in the infrastructure of our 
communities creates jobs and spurs economic growth.
    The experience in Maryland shows that it works. In 2007, 
Maryland took a bold step for public health and the environment 
by implementing the toughest power plant emissions law on the 
East Coast.
    Maryland's power plants met the challenge by installing new 
pollution control technologies that resulted in substantial 
economic benefits for the region. In March 2010, Constellation 
completed the upgrades at its 13-hundred Megawatt Brandon 
Shores coal-fired power plant. The project required a $1 
billion investment that generated nearly four million man-hours 
of labor from the Baltimore Building and Construction Trades 
Council workers. This included 26 months of work for 2,000 
skilled construction workers. This figure does not include the 
manufacturing and distributions jobs associated with the 
production of technologies and equipment purchased by the 
plant. Brandon Shores is now one of the cleanest coal-burning 
power plants in the country.
    Maryland's experience demonstrates that technological 
progress in the name of public health can actually boost 
employment and stimulate the economy.
    I believe that I have a responsibility to the people of 
Maryland and to the people of this country, to do all that I 
can to help prepare us for the consequences of climate change. 
We need to adapt our water infrastructure, our transportation 
infrastructure, and our electrical grid. We need to help our 
farmers to adapt so that our food supply--and that of the 
world--remains reliable. We need to adapt our coastal regions 
and prepare for the sea-level rise that is already beginning to 
threaten some of our coastal communities. We need to improve 
our public health infrastructure to deal with the heat-related 
illnesses that result from these extreme temperatures. In 
short, we need to act now to protect our communities.
    I look forward to hearing from our diverse panel of 
speakers on the latest climate change science and the steps we 
can take to reduce the impacts of climate change.

    Senator Boxer. Thank you, Senator Cardin.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman. I am 
pleased that you are having this hearing today.
    I must echo the concerns of Senator Vitter that we believe 
a Federal witness should be present at this hearing. It only 
makes sense that this Committee should able to have, and this 
Administration should be able to provide, a witness that can 
defend the Administration's Energy Policy.
    Just this morning, Madam Chairman, I was speaking at a web 
cast event on energy by Politico, down at the museum. Heather 
Zichal, the Deputy Assistant to the President for Energy and 
Climate Change, was the speaker right before I spoke. Now, this 
is the President's Chief Climate Change Advisor. Administration 
officials are apparently available for web casts today but not 
for hearings to defend their policies to the public and to 
answer questions.
    Senator Boxer. Would the Senator yield without losing his 
time?
    Senator Barrasso. Yes, Madam Chairman.
    Senator Boxer. I just want to say, we did not invite 
Heather Zichal. We did not. It was the decision of the Majority 
that we will have hearings with the Administration down the 
line. I do not want people to feel that they said no. We did 
not ask them because we are going to have those hearings once 
Gina is in place and we move forward.
    And so, I guarantee you, you will have more than one time 
to go at the Administration. I promise you. I committed to you, 
probably much more than once, probably two of three times. 
Please, do not make it sound like they did not want to come 
because honestly we did not invite them.
    Senator Barrasso. Thank you, Madam Chairman.
    This hearing today is entitled Climate Change: It's 
Happening Now. Many have tried to point to the specific severe 
weather events in the news and on the Senate floor and to say 
that a tornado or a storm, that is climate change. In response 
I quote the Nuclear Regulatory Commission Chairman Allison 
Macfarland who stated before this Committee that, ``I would not 
call these events extreme, I would consider them normal.' She 
stated that she made this statement as an earth scientist.
    So, what we need to be talking about is jobs. The 
Administration has, I believe, pummeled coal country, power 
plants, manufacturing and small businesses for 4 years, 
pursuing their preferred version of a clean energy future.
    Since 2009, unemployment has remained stagnant, families 
are hurting in States like Wyoming, Kentucky, Ohio, West 
Virginia, Montana and, according to the Heritage Foundation, 
the President's June 25th announcement to issue carbon limits 
for existing coal fired power plants, existing coal fired power 
plants, would adversely effect the more than 1,100 at nearly 
500 plant locations. These plants generate 40 percent of 
America's affordable, reliable energy.
    And this why today I am introducing legislation called the 
National Energy Tax Repeal Act. The bill very simply says that 
the authority to direct such regulations resides with Congress 
and cannot be issued by EPA unless Congress first authorizes 
it. President Obama's June 25th announcement circumvents the 
legislative process and the will of the American people. 
Congress had rejected the President's cap and trade policies in 
the past.
    The President's proposal is extraordinarily expensive. When 
you combine all of what the President is proposing for new and 
existing coal fired power plants, the compliance costs would be 
$130 billion. Those costs are going to be passed on to the 
hardworking families and seniors on fixed incomes. In addition, 
more than 250,000 jobs are at risk as coal fired power plants 
go bankrupt and are retired. The indirect job losses from high 
energy costs as small businesses lay off workers to stay afloat 
makes the number higher.
    We also know that this Administration and like-minded 
environmental activists are already planning the demise of 
natural gas. If the President is going after greenhouse gases, 
he will not stop at coal.
    Then Presidential-Nominee Barrack Obama said himself in the 
San Francisco Chronicle on January 17, 2008, he said because I 
am capping greenhouse gases, coal powered plants, natural gas, 
these are the President's words as a candidate, natural gas, 
you name it, whatever the plants were, whatever the industry 
was, they would have to retrofit their operations, that will 
cost money, they will pass that money onto consumers.
    The Sierra Club has already announced their Beyond Gas 
campaign. So the President has promised it, the Sierra Club has 
announced it, these actions are going to cost our economy even 
more jobs, lost opportunities for States to bring in new 
revenues to pay for things like college tuition, roads, 
hospitals.
    The fact is, these costs are very real. Yet the benefits of 
these climate change regulations are very much unknown. Even 
the President's Interagency Climate Change Adaptation Task 
Force stated in their 2011 progress report, they said ``The 
scope, severity and pace of future climate change are difficult 
to predict with precision.'
    The problem is this Administration and others on this 
Committee are willing to bet our economic future today as if 
their predictions about the future are a certainty. That is not 
the way to manage an economy and this is certainly not the way 
to develop an energy future for this Country.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much, Senator.
    Senator Whitehouse and then Senator Inhofe.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you very much, Chairman. I know 
how important this issue is to you and to many of our 
colleagues. And I think today's discussion is especially 
significant is light of the latest misleading line coming from 
the special interests that climate change has stopped and we 
can all pack up our bags and go home. The American people need 
to hear the truth.
    As we all know, the past 10 years are much warmer than 10 
years before them and are, in fact, warmer than any decade 
since recordkeeping began. And unfortunately there are plenty 
of other plain indicators that climate change is continuing 
apace.
    On the second panel, we will focus on the effects of 
climate change and ocean acidification, both consequences of 
carbon pollution. Oceans are still getting warmer and more 
acidic. Sea level is still rising. Glaciers and Arctic sea ice 
are still melting. Seasons are still shifting. The most 
convincing thing about climate science is not how many climate 
scientists are part of the consensus, but how many different 
lines of evidence that consensus is built on.
    Climate change is happening now. The consequences are real. 
We here in Congress should be working to slow the known cause 
of that change, the incessant dumping of carbon pollution into 
our atmosphere and oceans. And we should be working to prepare 
for the changes that we can no longer avoid. We need to seek 
bipartisan and common sense solutions. Instead, because the 
barricade of special interest influence has blocked action of 
climate change, we are taking on risk.
    Some of us have put forward a solution that we think can 
appeal to a broad section of Senators, namely to put a price 
from carbon pollution coming from the largest sources. The big 
polluters have been getting a free ride. They are harming all 
of us with their emissions and they are paying no price for it.
    Carbon-driven climate change hurts our economy, damages our 
infrastructure, compromises the security of our Nation and 
harms public health. These costs, however, are not factored 
into the price of the coal or oil that is burned to release the 
carbon. The big oil companies and the coal barons have 
offloaded those costs onto society.
    The cost of the damages from carbon pollution that these 
corporations are unloading onto the rest of the society is 
called the social cost of carbon. The Administration recently 
released updated social cost of carbon values which they use in 
cost benefit analysis. While I commend them on the update, 
there remains room to improve the calculation to account for 
damages from carbon pollution that are difficult to quantify 
now, such as ocean acidification and species loss. I look 
forward to future updates factoring in these damages.
    We often hear, in this chamber, colleagues extolling the 
virtues of the marketplace. Indeed, a fair and open marketplace 
is the cornerstone of our economy. Markets work, not perfectly 
always, but better than any other mechanism. But markets only 
work when they are fair and markets are not fair if the price 
of pollution is not taken into account. The value of open and 
fair markets is lost when people cheat, just as when they 
offload their costs onto the general public.
    The mounting costs of carbon pollution on society is a 
market failure. A carbon fee would make the market work more 
efficiently by putting the costs of carbon pollution into the 
price of the product instead of letting the big polluters 
freeload on the general public. It is Economics 101. It will 
also be a real step toward reducing harmful carbon pollution 
and it will generate significant revenue, every penny of which 
could and should go back to the American people and propel the 
economy.
    Climate change is, indeed, happening now. Now is the time 
for us to get serious about solving this problem. And I thank 
the Chairman for calling this hearing.
    Senator Boxer. Thank you so much.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. And I do want to 
thank you for, I called you this morning and, as you are well 
aware, I am the Ranking Member on Armed Services and we have 
another hearing taking place at the same time. But this is too 
important not to participate in. So, I thank you very much. And 
I will be going back and forth.
    Thank you for holding the hearing. I am disappointed that 
we do not have Administration officials here. I anticipated 
that we would early on, but we do not.
    Around the same time that the President gave his speech on 
global warming last month, his campaign team developed a 
talking points memo that was crafted to provide alarmists 
around the Country with specific instructions about how they 
should talk about global warming. The President wants everyone 
to be on the same page. He has tested and tried these talking 
points on focus groups and even has come up with a list of dos 
and don'ts which they are putting up behind us, dos and don'ts 
when talking about climate change which you can see in the 
chart behind me.
    Now, these talking points are not honest or 
straightforward. They are purely political. In the memo's first 
point, it says I do not lead, it says do not lead with straight 
economic arguments. The President makes it clear that he does 
not want anyone talking about the cost of taking action to stop 
global warming. And we know exactly why. Whether it is 
legislation or regulation, any action to reduce greenhouse 
gases is going to cost the economy at least $300 billion to 
$400 billion a year.
    We have used this figure now for quite some time. It is 
rather interesting because when it first came out, it was a 
Wharton figure. Later on, MIT and I think Charles Rivers and 
others came out. Now, that is a figure that is tied to the, a 
cap and trade bill. Now instead, the President instructs 
alarmists to ``talk about how climate change is harming America 
now' and about ``real impacts including asthma attacks and 
extreme weather events like hurricanes and tornadoes.'
    Claiming global warming is causing extreme weather is wrong 
and even President Obama's nominees disagree with him. Allison 
Macfarlane, who was nominated by the President to be Chairman 
of the Nuclear Regulatory Commission, testified before this 
Committee just a few weeks ago. When she was asked about the 
weather and if she thought the tornadoes or that Hurricane 
Sandy were extreme weather events, she said I would not call 
these events extreme. I would call them normal.
    Most meteorologists agree. A recent study by George Mason 
University reported that 63 percent of weathercasters believe 
that any global warming that occurs is the result of natural 
variation and not human activities. That is a significant two 
to one margin. Now, given this, we are lucky one of our 
distinguished panelists, which I hope I will come back, Dr. 
Cullen, to ask a few questions of you, is not in charge.
    I am kind of glad you are not in charge of meteorological 
licenses. If so, then 63 percent of them would be fired. You 
once said, or she once said I should say in opening statement, 
if a meteorologist cannot speak to the fundamental science of 
climate change and that it is manmade, then maybe the American 
Meteorological Society should not give them a seal of approval.
    That would mean that meteorologists like Aaron Tuttle in 
Oklahoma City would be out of a job. He does not believe in 
manmade, in global warming, but he regularly saves Oklahoma 
lives by predicting when and where tornadoes will strike which 
helps people know exactly when they need to take cover during 
severe storms.
    And even though the President's talking points instruct 
alarmists not to ``debate the validity or consensus of the 
science that is already settled' more and more reports are 
surfacing all the time that show the science is not settled.
    In March, the Economist reported that ``Over the past 15 
years, air temperatures and the earth's surface have been flat 
while greenhouse gas emissions have continued to soar.' And 
just this past week Harvard and the Forest Service came out 
with a study that shows trees are growing faster and using less 
water with higher concentrations of atmospheric concentrations 
of CO<INF>2</INF> . This is the opposite of what scientists 
expected before. But the alarmists cannot talk about it because 
they have received their instructions from the President.
    The President's talking points demonstrate that he is only 
interested in achieving his desired political outcome whatever 
the costs. Now, why do they want to do this? We all remember 
what Richard Lindzen said and I have quoted it many times. I 
think it is very difficult for anyone to criticize Richard 
Lindzen. He is the atmospheric physicist at MIT. He said that 
regulating carbon is a bureaucrats dream because if you control 
carbon, you control life.
    And when you zoom out and consider this from a distance, it 
is a core tenant of liberalism. As the President's political 
philosophy, he believes that the Government can make better 
decisions than the people.
    And I do applaud you for having this hearing, Madam 
Chairman.
    Senator Boxer. Thanks.
    Senator Inhofe. I think it is a lot of theater here but it 
is going to be fun and we can get back in and start talking 
about it again.
    Senator Boxer. Your time is up. But I love the theater. Is 
this the second act?
    [Laughter.]
    Senator Inhofe. Excuse me?
    Senator Boxer. I said are you giving us the second act?
    Senator Inhofe. Act Two, that is right.
    Senator Boxer. Anyway, I am glad you came because I do not 
think this is theater. I think this is deadly serious. I 
appreciate that you have the same song that you have had all 
along. I do not know what it will take to convince you but I am 
going to keep on trying.
    Senator Inhofe. Well, then, let me respond to that.
    Senator Boxer. Please do. I would not feel good if you did 
not.
    Senator Inhofe. I would only say that there has been time, 
in the last 12 years, I cannot tell you how many bills have 
been introduced in the House and the Senate. Not one has passed 
the U.S. Senate, which is the more liberal branch of the two 
Houses. And I do not think today you could get 35 votes out of 
the U.S. Senate for a cap and trade bill.
    Senator Boxer. Well, we are not discussing that, OK? Let us 
not get into cap and trade. All I am saying, and this will be 
the last word before I call on Senator Hirono, is this. I do 
not know what it will take to convince you and the deniers of 
what is out the window.
    Senator Inhofe. It is not just me. It is two-thirds of the 
United States Senator.
    Senator Boxer. Senator Hirono.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Madam Chairman, thank you for holding this hearing today. I 
was looking forward to hearing from Administration officials 
about the President's global warming proposal, so you can 
understand why I'm disappointed that no officials are 
testifying today. Around the same time the President gave his 
speech on global warming last month, his campaign team 
developed a secret talking points memo that was crafted to 
provide alarmists around the country with specific instructions 
about how they should talk about global warming.
    The President wants everyone to be on the same page. He's 
tested and tried these talking points on focus groups, and he 
even came up with a list of ``Do's and Don'ts'' when talking 
about climate change, which you can see on the Chart behind me. 
These talking points are not honest or straight forward. 
They're purely political. In the Memo's very first point, which 
says ``don't lead with straight economic arguments,'' the 
President makes it clear that he doesn't want anyone to talk 
about the cost of taking action to stop global warming. And we 
know exactly why--whether it's legislation or regulation, any 
action to reduce greenhouse gases is going to cost the economy 
at least $300 billion or $400 billion per year. And the 
Administration knows that once the discussion turns to cost--
they've lost the debate.
    Instead, the President instructs alarmists to ``talk about 
how climate change is harming Americans now'' and about the 
``real impacts including asthma attacks and extreme weather 
events'' like hurricanes and tornadoes. But claiming global 
warming is causing extreme weather is farfetched, and even 
President Obama's nominees agree with him. Allison MacFarlane, 
who was nominated by the President to be the Chairman of the 
Nuclear Regulatory Commission, testified a few weeks ago in 
this Committee. And when she was asked about whether she 
thought the tornadoes in Oklahoma or Hurricane Sandy were 
extreme weather events, she said, ``I would not call these 
events extreme. I would call them normal. Most meteorologists 
agree. A recent study by George Mason University reported that 
63 percent of weather casters believe that any global warming 
that occurs is the result of ``natural variation'' and not 
``human activities.'' That is a significant two-to-one 
majority.
    Given this, we're lucky one of our distinguished panelists 
is not in charge of meteorological licenses. If she were, then 
63 percent of them would be fired. She once said, ``If a 
meteorologist can't speak to the fundamental science of climate 
change,'' and that it's man-made, ``then maybe the American 
Meteorological Society shouldn't give them their Seal of 
Approval.'' That means that Meteorologists like Aaron Tuttle in 
Oklahoma City would be out of a job. He doesn't believe in 
manmade global warming, but he regularly saves Oklahoma lives 
by predicting when and where tornadoes will strike, which helps 
people know exactly when they need to take cover during severe 
storms. And even though the President's talking points instruct 
alarmists to not ``debate the validity or consensus of the 
science that is already settled,'' more and more reports are 
surfacing all the time that show the science is not settled.
    In March, the Economist reported that ``Over the past 15 
years, air temperatures at the Earth's surface have been flat 
while greenhouse-gas emissions have continued to soar.'' And 
just this past week, Harvard and the Forest Service came out 
with a study that shows trees are growing faster and using less 
water with higher atmospheric concentrations of CO<INF>2</INF> 
. This is the opposite of what scientists expected before, but 
the alarmists can't talk about it because they've received 
their instructions from the President.
    The President's talking points demonstrate that he's only 
interested in achieving his desired political outcome--whatever 
the cost. Why do they want to do this? We all remember Richard 
Lindzen, the world renowned atmospheric physicist at MIT. He 
said that regulating carbon is a ``bureaucrat's dream,'' 
because ``if you control carbon, you control life.'' When you 
zoom out and consider this from a distance, it is the core 
tenant of liberalism and the President political philosophy. He 
believes that government can make better decisions than the 
people, and regulating carbon dioxide will give him all he 
needs to make nearly every decision for the American people.

          OPENING STATEMENT OF HON. MAIZE K. HIRONO, 
             U.S. SENATOR FROM THE STATE OF HAWAII

    Senator Hirono. Thank you, Chairman Boxer and Ranking 
Member Vitter for scheduling today's hearing. This is my first 
hearing as a Member of this Committee and as a Senator from 
Hawaii I am very glad to be here to take part in this important 
discussion.
    Throughout human history, our natural environment has 
provided a stable, predictable foundation for civilization. 
However, there is clear evidence that foundation is changing. 
Today's hearing will explore the scientific evidence that 
changes to earth's climate are contributing to extreme weather 
events of increasing severity and frequency. These extreme 
events, as well as changes occurring in our world's oceans, are 
a major concern to the long-term economic and national security 
interests of the U.S.
    In Hawaii, we have already seen the impact of climate 
change both on land and in the ocean that surrounds us. There 
are many impacts on Hawaii that I could mention, but given the 
short time, I will focus on three: impacts on our economy, our 
communities and national security.
    The Pacific Ocean is the world's largest physical feature. 
Situated in the center of the Pacific, Hawaii is the world's 
most isolated archipelago. While our people and communities 
have always had a special relationship with the ocean, we are 
also acutely aware that we are at its mercy. Rising ocean 
temperatures, sea level rise and ocean acidification pose 
serious risks to our economy and communities.
    For example, the sea level has risen in Hawaii at the rate 
of 0.6 inches per decade over the past century. Research 
indicates that sea levels may increase by three feet by the end 
of the century. This means that areas like Waikiki, I am sure 
many of you have been there, a critical driver of Hawaii's 
tourism economy, are likely to face serious flooding if sea 
level rise intensifies.
    In addition, we are seeing more extreme weather as a result 
of changes to our weather patterns. This is straining our 
infrastructure and harming our communities. For example, while 
overall rainfall in Hawaii, which is critical to replenishing 
the groundwater we rely on, has decreased by 15 percent in the 
past 20 years, but yet we have seen a 12 percent increase in 
very heavy downpours. In fact, in the spring of 2012, severe 
flooding occurred that required the Governor to issue a 
disaster declaration for Oahu and Kauai.
    President Obama also signed a Federal disaster declaration 
for the island of Kauai which was hard hit by flooding that 
caused more than $3 million in damage just to public facilities 
and roads. These situations demonstrate the impact climate 
change is already having on Hawaii's economy and communities.
    As a result of scientific evidence and real life 
experiences with climate change, the State of Hawaii has taken 
an aggressive approach toward addressing climate change. We 
have passed State laws limiting greenhouse gas emission, 
promoting clean energy and energy efficiency, and a law to 
address climate change adaptation. These efforts are forward 
looking, but support on the Federal level is needed.
    Hawaii is also home to the U.S. Pacific Command, PACOM, 
which is responsible for the entire Asia Pacific region. That 
is over half the planet. PACOM's leadership has continually 
warned of the impact of increasingly severe weather patterns on 
stability in the region. On average, PACOM is involved in 
responding to a natural disaster within the region once every 8 
weeks.
    These are just some of the economic and security concerns 
that climate change are posing in Hawaii right now. And the 
situation will only intensify in the future if we do nothing.
    Some will argue that we should not lead on this issue as a 
Nation because it will not make enough of a difference unless 
developing nations join us. The fact is we are risking falling 
behind right now. China is taking this issue seriously. It has 
set up pilot carbon markets and is taking action to invest in 
renewable energy. In fact, there is a U.S.-China climate change 
working group to promote high level negotiations and discussion 
between our two countries on key climate change issues.
    Climate change is a great challenge of our time. We can 
stand and meet the challenge, which will change the foundation 
of our economy and society for the better. I hope that today's 
hearing will serve to make the case for strong, cooperative, 
bipartisan action. I look forward to working with all of my 
colleagues on these vital issues.
    Thank you, Madam Chair.
    [The prepared statement of Senator Hirono follows:]

            Statement of Hon. Maize K. Hirono, U.S. Senator 
                        from the State of Hawaii

    Chairman Boxer, Ranking Member Vitter, thank you for 
scheduling today's hearing. This is my first hearing as a 
member of this Committee, and as a Senator from Hawaii I am 
very glad to be here to take part in this important discussion. 
Throughout human history our natural environment has provided a 
stable, predictable foundation for civilization. However, there 
is clear evidence that foundation is changing.
    Today's hearing will explore the scientific evidence that 
changes to the earth's climate are contributing to extreme 
weather events of increasing severity and frequency. These 
extreme events, as well as changes occurring in our world's 
oceans, are of major concern to the long-term economic and 
national security interests of the U.S. 1In Hawaii, we are 
already seeing the impact of climate change--both on land and 
in the ocean that surrounds us. There are many impacts on 
Hawaii that I could mention, but given the short time I will 
focus on three: Impacts on our economy, our communities, and 
national security.
    The Pacific Ocean is the world's largest physical feature. 
Situated in the center of the Pacific, Hawaii is the world's 
most isolated archipelago. While our people and communities 
have always had a special relationship with the ocean, we are 
also acutely aware that we are at its mercy. Rising ocean 
temperatures, sea level rise, and ocean acidification pose 
serious risks to our economy and communities. For example, the 
sea level has risen in Hawaii at rate of 0.6 inches per decade 
over the past century. Research indicates that sea level may 
increase by 3 feet by the end of the century. This means that 
areas like Waikiki--a critical driver of Hawaii's tourism 
economy--are likely to face serious flooding if sea level rise 
intensifies.
    In addition, we are seeing more extreme weather as a result 
of changes to our weather patterns. This is straining our 
infrastructure and harming our communities. For example, while 
overall rainfall in Hawaii--which is critical to replenishing 
the groundwater we rely on--has decreased by 15 percent in the 
past 20 years, we have seen a 12 percent increase in very heavy 
downpours. In fact, in the spring of 2012 severe flooding 
occurred that required the Governor to issue a disaster 
declaration for Oahu and Kauai. President Obama also signed a 
Federal disaster declaration for the island of Kauai, which was 
hard hit by flooding that caused more than $3 million in damage 
just to public facilities and roads.
    These situations demonstrate the impact climate change is 
having on Hawaii's economy and communities. As a result of 
scientific evidence and real life experiences with climate 
change, the State of Hawaii has taken an aggressive approach 
toward addressing climate change. We have passed State laws 
limiting greenhouse gas emissions, promoting clean energy and 
energy efficiency, and a law to address climate change 
adaptation. These efforts are forward looking--but support on 
the Federal level is needed.
    Hawaii is also home to the U.S. Pacific Command (PACOM) 
which is responsible for the entire Asia-Pacific region. That 
is over half the planet. PACOM's leadership has continually 
warned of the impact of increasingly severe weather patterns on 
stability in the region. On average, PACOM is involved in 
responding to a natural disaster within the region once every 8 
weeks. These are just some of the economic and security 
concerns that climate change are posing in Hawaii right now--
and the situation will only intensify in the future if we do 
nothing.
    Some will argue that we shouldn't lead on this issue as a 
nation because it won't make enough of a difference unless 
developing nations join us. The fact is we're risking falling 
behind right now. China is taking this issue seriously. It has 
set up pilot carbon markets and is taking action to invest in 
renewable energy. In fact, there is a U.S.-China Climate Change 
Working Group to promote high level negotiations and 
discussions between our two countries on key climate change 
issues. Climate change is the great challenge of our time. We 
can stand and meet the challenge, which will change the 
foundation of our economy and society for the better. I hope 
that today's hearing will serve to make the case for strong, 
cooperative, bipartisan action. I look forward to working with 
all of my colleagues on these vital issues.

    Senator Boxer. Thank you so much, Senator.
    Senator Sessions.

               STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you very much. We appreciate the 
desire to have a hearing focused on science and we need to talk 
about that. But I do agree with Senator Vitter that the 
Administration officials, it would be good to have them here 
today.
    With regard to the science, we need to be honest and 
somewhat humble, I think, as we deal with these issues. No 
person knows everything about the future of climate in the 
world and what causes it.
    We know greenhouse gases emitted by humans can have a 
warming affect. I think that sounds commonsensical to me. I 
agree that there is logic to that, as did President Bush. It is 
this view, Senator Boxer says that 97 percent or 98 percent 
that agree. Well, I think I am in the 98 percent. Dr. Spencer, 
who will raise some questions here today, is in the 98 percent 
that I believe that we have changes in the temperature and we 
need to analyze how they occur.
    But how much can we do and what all is occurring? We have 
less confidence it seems to me. We know the atmosphere has 
warmed some over the last 100 years. We know that global 
temperatures have not increased in 15 years, pretty clearly.
    Senator Boxer, I asked EPA for the kind of report you say 
you have that justifies the claim that there has been no 
decline, or no flattening of the temperature, and they have not 
produced it. So, I would like to see the document that you put 
into the record. I have been asking for it for months. But it 
is not going to say that the temperature has increased in the 
last 10 years because it has not.
    So, the President, I believe, continues to mislead the 
public on this subject. He has said ``Temperatures around the 
globe are increasing more than was predicted 10 years ago.' He 
said that in November. He said that again this spring. So, we 
need to be talking about real data and real facts. I asked Lisa 
Jackson about it and Gina McCarthy and we have not been able to 
see any data that backs that statement up.
    We also know that many of the President's supporters have 
already benefited financially from the green energy agenda. 
They are out there having a real interest in maintaining this 
agenda and sometimes it is alarmism at expense to the 
taxpayers. Solyndra, a failed solar power effort, exposed 
taxpayers to $535 million in losses. A123 Systems, a failed 
battery power project, exposed taxpayers to $249 million in 
losses. Abound Solar, a failed solar power project, exposed 
taxpayers to $400 million in losses.
    Wages are falling. The American people are hurting. 
Unemployment is high. Energy costs are high. Poor people are 
hurting. And we have got to be careful when we impose 
regulations that do not have an overt U.S. Treasury cost that 
cost them because they have to pay more for the electricity, 
pay $50 or $100 more a month to drive to work, that is not a 
little matter. It is a big matter. We need to know what the 
science is that would justify that.
    But we do not really know how much of this warming will 
actually occur in the years ahead. That is very much in 
question. So, we need more science to try to figure that out. 
That is why I thought it was important that scientists like Dr. 
Spencer at UAH and Dr. Christy who assessed the data.
    And I would like to submit for the record a paper prepared 
by Dr. Richard McKnight and Dr. John Christy entitled Why We 
Need a Red Team Approach to Global Science. We need some people 
that challenge some of this data. More and more as years go by 
we find some of it is not objective.
    Senator Boxer. Without objection, we will place that in the 
record.
    Senator Sessions. Thank you.
    We keep hearing that there are record high temperatures in 
recent years. But Dr. Christy said by far there were far more 
record high temperatures in the Dust Bowl years than we are 
having in the last decade. Who is correct about that? Let us 
look at these numbers and see who is accurate in that.
    The ultimate fact is as U.S. policymakers we need to know 
whether imposing a carbon tax and cap and trade system are 
cutting our greenhouse emissions by 80 percent, as the Chair 
proposes, would achieve the kinds of reductions in global 
atmospheric concentrations of CO2 that could change global 
temperatures.
    So, I look forward to the hearing. I think it is important. 
And let us all maybe chill a moment and learn something.
    Thank you.
    Senator Boxer. Thank you. Let us all chill. That is good.
    OK, we turn to Senator Sanders and then followed by Senator 
Fischer.

              STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Madam Chair, thanks for very much for 
holding this hearing.
    This truly is an Alice in Wonderland hearing. Within this 
little room we are clearly living in two separate planets. Two 
separate worlds. And whether the differences are influenced by 
the fact that the Koch brothers at ExxonMobil and the petroleum 
industry and fossil fuel industry is pouring hundreds of 
millions of dollars into think tanks trying to confuse the 
American people or are we just dealing with politics here, I 
really do not know.
    But to deny the fact that the overwhelming, overwhelming 
majority, some 98 percent of scientists who have published peer 
reviewed articles, believe not only that global warming is 
real, but that it is manmade. And to continue that discussion 
is we are not sure, let us not talk about, let us look at 
something else, is almost beyond intellectual comprehension.
    And I will say this. We have a lot of differences in the 
Congress, a lot of philosophical differences. But I predict 
that our grandchildren and our great grandchildren will look 
back on this period and they will not be appreciative of the 
fact that members of the U.S. Senate have refused not only not 
to go forward in combating global warming but even 
acknowledging the reality of global warming.
    Madam Chair, among scientists, this is according to the 
American Association for the Advancement of Science, one the 
large scientific organizations in the world, quote, this is a 
month ago, 1 month ago, ``There is now overwhelming agreement 
based on multiple lines of scientific evidence that global 
climate change is real, it is happening right now and it will 
have broad impact on society.' That is virtually what every 
major scientific organization, not only in the United States of 
America but throughout the world, is saying. And it is 
incredible that we are not on the floor right now discussing 
serious legislation to cut back on greenhouse emissions.
    I think it was Senator Vitter who said, what about the 
costs? What about the costs? Well, let me talk about the costs. 
What about the costs of inaction? What will more droughts mean 
to agriculture in this Country? What will more floods mean in 
terms of property destruction? What will climate change mean 
for national security?
    It is not only meteorologists, and by the way, not 
weathermen and weatherwomen, in all due respect weathermen, I 
am not quite sure that they are part of the scientific 
community, but what you have is our national security people 
who are telling us that if you see more drought and less food 
production, more drought and less drinkable water, you are 
going to have international conflict.
    Navy Admiral Samuel J. Locklear III, who is the head of the 
U.S. Pacific Command, I think Senator Hirono referred to this, 
recently described climate change as the biggest national 
security threat facing the region. Climate change, he warns, 
and I quote, ``will cripple the security environment probably 
more than other scenarios we all often talk about.' That is the 
national security issue.
    Now, to my mind the time for waiting is over. We need bold 
action. The United States needs to do what we do best, is lead 
the world in a new direction. And I am very proud that along 
with Senator Boxer, she and I have introduced legislation that 
will, in fact, impose a tax on carbon.
    Senator Whitehouse is absolutely right. People who are 
causing enormous damage to our planet are saying we need cheap 
energy. You are not cheap energy. Coal and oil are not ``cheap' 
energy as they are causing catastrophic damage to this planet. 
It is the most expensive form of energy.
    So, Madam Chair, I think the time is long overdue for us to 
move away from fossil fuel, to move boldly to energy efficiency 
and to such sustainable energies as wind, solar, geothermal, 
biomass and, by the way, when we do that we will also create 
millions of jobs as we transform this economy.
    Thank you.
    Senator Boxer. Thank you so much, Senator.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you Madam Chair and thank you 
Ranking Member Vitter, for holding this hearing today. I would 
also like to thank our witnesses for being here and their 
willingness to share their time with us.
    I would also like to welcome Senator Hirono. As a fellow 
member of the freshman class, it is so nice to have you on this 
Committee.
    Today we are going to have a serious discussion, I hope. It 
is going to be a robust discussion. Because as we see movement 
to unilaterally force reductions in U.S. greenhouse gas 
emissions, the American people who are being forced to pay more 
for fuel and electricity as a result, they deserve to have an 
accounting of these actions.
    Without reductions from China and India, the world's 
biggest greenhouse emitters, we must question whether the 
environmental benefits are even discernible and whether they 
are worth harming our economy at a time when three-quarters of 
Americans are living paycheck to paycheck.
    The U.S. share of global CO2 emissions has been declining 
for nearly a decade, from 25 percent in 2000 to 19 percent in 
2008. I believe that these declines occurred due to market 
forces and without expensive, burdensome and unworkable 
policies.
    President Obama's order to EPA to cut carbon dioxide 
emissions from new and existing power plants would adversely 
affect coal fired plants the most. America has more than 1,000 
coal fired generators at nearly 600 plant locations that 
generate 40 percent of America's affordable and reliable 
energy. Nebraska families and Nebraska businesses depend on 
coal fired generation for two-thirds of their electric needs 
and we would be disproportionately penalized under this plan.
    It is important for our Committee to examine energy price-
raising climate change policies and I am hopeful that we will 
have a hearing soon to do so.
    With that, I will end my time and thank you, Madam Chair, 
and I look forward, again, to a robust discussion.
    Senator Boxer. Thank you so much.
    So now we turn to our panel of experts and I echo Senator 
Fischer's welcome and thank you all for being here. No pun 
intended, this is a hot topic.
    Dr. Heidi Cullen, Chief Climatologist at Climate Central, 
Mr. Frank Nutter, President, Reinsurance Association of 
America, Mr. KC Golden, Policy Director, Climate Solutions, Ms. 
Diana Furchtgott-Roth, Senior Fellow, Manhattan Institute for 
Policy Research, and Dr. Robert Murphy, Senior Economist, 
Institute for Energy Research.
    So, we welcome you.
    I see that Senator Carper is here. So, we will just hold 
off for one moment, he will do his 5 minutes, and we will start 
with you, Dr. Cullen.
    Go ahead, Senator.

              STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you. Please bear with me. Thank you 
very much, Madam Chair.
    I will not need to take 5 minutes. I will just say this. I 
was privileged as a 17 year old to win a Navy ROTC scholarship 
and went off to Ohio State to study economics and fall into the 
Navy. And from time to time I go back to Ohio State.
    There is a husband and wife research team that still works 
there and they run something called the Pohl Research Center 
that you may have heard of at Ohio State. And what they have 
done over the last 20, 25 years is to visit the, how many of 
you have ever heard of the Pohl Research Center? OK. What they 
have done is they have visited some of the highest mountaintops 
in the world, largely down around the equator, and they recover 
ice core samples that enable them to look back in time. And 
they look back in time not just 100 or 200 years, they look 
back 100,000, 200,000, 800,000 years.
    The ice core samples disclose the levels of carbon in the 
atmosphere during those periods if time. And they have the 
ability to see where levels of carbon were high and where they 
were relatively low. And there is a direct correlation to the 
temperature in those times and the levels of carbon in those 
times. And we see in our atmosphere today levels of carbon that 
I believe are higher than any other data observed in all of 
those ice core samples that they have recovered over decades of 
work.
    The other thing that I want to say, more up to the present, 
Madam Chair, in my State there is a major highway, Highway 1, 
kind of like 101 in California, that goes from the northern 
part of the State to the southern part of the State. When you 
get down into Sussex County, our southernmost county, and you 
turn east off of Highway 1, you head toward the Delaware Bay. 
You drive literally alongside a wildlife refuge, Prime Hook 
Wildlife Refuge, a beautiful place. And when you keep going, 
you drive right into the bay and off in the distance, maybe 20 
miles or so, is New Jersey. But if you keep on driving, you 
drive right into the bay.
    It was not always that way. It used to be you would drive 
into a parking lot. And people parked their cars or their 
trucks or their boats and they would fish or crab or go 
boating. And I have a picture from 1947, the year I was born. 
In 1947, there is a picture of that spot and you are standing 
there looking east from Delaware toward New Jersey but you are 
looking out across the Delaware Bay.
    And in 1947 there was a bunker, a concrete bunker, I think 
it had something to do with the fortifications in anticipation 
of attack by the Germans, submarines or whatever, during World 
War II. It was a concrete bunker that sat about 300 feet or 400 
feet west of, west of the dune line in that place, 300 feet or 
400 feet west of the dune lines on dry sand, a concrete bunker. 
Today, that concrete bunker is in the water. It is in the 
Delaware Bay. You can still see the top of the bunker 
protruding from time to time, but it is not 400 feet west of 
the dune lines anymore. It is in the water.
    I like to quote the guy that actually the Chair knows, a 
guy named Stephen Stills, and I jokingly refer to him as that 
famed California climatologist who once wrote something is 
happening here, just what it is ain't exactly clear. Well, 
something is happening here and I think it is pretty clear. It 
is pretty clear to me. And the question is what, if anything, 
are we going to do about?
    Thanks very much.
    [The prepared statement of Senator Carper follows:]

            Statement of Hon. Tomas R. Carper, U.S. Senator 
                  from the State of Statement Delaware

    I want to thank the Chairman for having this hearing and 
thank the witnesses for being here today. For years, I have 
worked with my colleagues--many on this Committee--and 
President Obama and his administration to try to tackle climate 
change. Yes, it's true. I'm a believer. I believe that climate 
change is not only real, but that it is one of the biggest 
challenges facing our world today. Two climatologists I met 
years ago from my alma mater of Ohio State University, Dr. 
Lonnie Thompson and his wife Dr. Ellen Mosley-Thompson, helped 
make me a believer.
    For decades, this husband-and-wife duo has been climbing 
some of the tallest mountains in the world to collect ice core 
samples. These ice samples date back hundreds of thousands of 
years and contain valuable data about what was in the 
atmosphere and what the climate was like at the time. Their 
research has found that there is a direct correlation between 
the levels of carbon dioxide in our air and warmer 
temperatures.
    We know humans have dramatically increased the levels of 
carbon dioxide in the air through burning fossil fuels. We also 
know, based on ice samples, carbon pollution in the atmosphere 
is at levels not seen in 800,000 years. And we know we have 
rising global temperatures. To borrow from Stephen Stills, I 
believe that something's happening here--and what it is 
actually pretty clear. We don't have to go the highest 
mountains in the world to see the impacts of climate change; we 
can find impacts in my own State of Delaware.
    The harmful effects of climate change, specifically sea-
level rise and extreme weather events like Superstorm Sandy, 
pose a unique and serious threat to my coastal home State of 
Delaware, as well as several of our neighbors along the coast. 
When I am in Sussex County, Delaware, I like to drive out to 
the Delaware Bay. I usually head east, and I like to go through 
Prime Hook National Wildlife Refuge. Years ago, I would come 
across a parking lot where people could walk, fish, swim or go 
crabbing. Today, that parking lot is entirely underwater.
    If you look slightly out in the water--there lays a World 
War II bunker, once 300 meters from the shoreline and now 
almost completely submerged by the rising tides. When I talk 
with people who don't believe that the sea is rising, I urge 
them to drive out and see that parking lot, see that bunker. 
Despite the science and what's happening in states like 
Delaware, we will hear from some of my colleagues and some of 
today's witnesses that taking action is too expensive. They say 
we cannot protect our economy and our environment at the same 
time.
    I'd like to remind my colleagues that history has proven 
this is a false choice: we can protect both. In fact, I would 
argue the costs are too great if we do not act. The Government 
Accountability Office agrees with me--listing this year that 
climate change is a high risk to our country's fiscal health. 
Taking action means investing in a lower carbon economy, but 
also investing in more resilient communities. We need to be 
making investments in beach replenishment, smarter 
infrastructure, and drought resistant crops that can help our 
economy weather the storms to come.
    We also need to be smarter about where we put our homes, 
buildings and roads--especially along our coastlines. 
Fortunately, we aren't starting from square one. Already, this 
country is moving forward on a cleaner economy--due in big part 
to the commitments made by the Obama administration. 
Investments in solar, wind, nuclear, and even clean coal are 
moving this country away from our dirty fossil fuel dependence. 
Our cars, trucks and vans continue to become more efficient, 
saving consumers money at the pump and keeping our car 
companies more competitive than ever. And laws like the Coastal 
Barrier Resources Act, sponsored in 1982 by my good friend, 
former Delaware Congressman Tom Evans, have saved countless tax 
dollars and protected coastlines highly exposed to storms that 
otherwise would have been developed.
    I'd like to ask for unanimous consent to submit a further 
statement about Congressman Evans's efforts and a recent 
article by Justin Gillis, which appeared in the April 8th, 
2013, edition of The New York Times, for the Record. We aren't 
at square one, but we still have a long way to go. As I said at 
the beginning--I'm a believer. And I believe it's time we stop 
fighting over established science and work together to enact 
common-sense environmental protections that are good for both 
our earth and our economy.
    Thank you again Madam Chairman.
    Statement on Coastal Barrier Resources Act:
    Madame Chairman, it has now been 8 months since Hurricane 
Sandy devastated so much of the Northeastern coast of our 
country. In the immediate aftermath of this tragic storm, we 
saw people from all walks of life pulling together, helping one 
another, and taking care of their neighbors. In Delaware, we 
witnessed State, country, and local officials, along with first 
responders, the Red Cross, the Delaware National Guard, and 
many volunteers all pitch in to help. It was both incredible 
and inspirational to witness, and it was a testament America's 
longstanding tradition of helping our neighbors, whether they 
live down the street or across the country.
    Madame Chairman, we're now well into the summer, and as 
every Member who represents a coastal area knows, summertime is 
a vital time for our critically important tourism industry. As 
families and businesses continue to rebuild, I am heartened to 
see that coastal communities up and down the East Coast have 
made significant progress toward a full recovery, and are open 
for business in most instances. It is a testament to the 
decisive and comprehensive actions taken by President Obama, 
Secretary Donovan and the members of the President's Hurricane 
Sandy Rebuilding Task Force, along with the congressional 
delegations and Governors of all of the affected states, and 
countless State and local leaders, officials, residents, 
business owners, and volunteers.
    As remarkable as the progress has been, it will take years 
to recover from the devastation caused by Sandy, and it's 
important that we get it right. Lives, communities, and 
businesses depend on it. We also must remember that, even as we 
continue to do all we can to support those who are working so 
hard to rebuild their lives and livelihoods, it is our 
responsibility to remain ever mindful of the threat of extreme 
weather, which is always looming along our coastal areas. 
Unfortunately, the Northeast and Mid-Atlantic are expected to 
see more frequent and larger storms like Sandy in the future. 
As a result, we need to do everything we can to mitigate the 
effects of these future storms, since we know all too well that 
an ounce of prevention is worth a pound of cure.
    In Delaware, we've seen the benefits of mitigation up 
close. Over a number of years, the Army Corps of Engineers 
built a series of storm protection projects in Delaware, funded 
by State and Federal dollars. Our robust beaches and strong 
dune systems performed very well during the worst of Sandy, 
likely sparing us billions of dollars in damage. The relatively 
small investment of tens of millions of dollars that our State 
made, matching even larger Federal investments, helped to 
protect more than 17,000 homes in our coastal communities, 
whose value exceeds over $7 billion.
    There is another key tool that we can use to help protect 
against the impact of coastal storms and reduce the significant 
Federal investment that is required in their aftermath. This is 
the legacy of a remarkable Delaware leader who served in many 
respects as a role model for many of us in Congress not that 
long ago. In 1982, Congressman Tom Evans and Senator John 
Chafee of Rhode Island--both Republicans--wrote a simple, yet 
brilliant, law to slow the growth of rising Federal disaster 
recovery costs. Their bill, entitled The Coastal Barrier 
Resources Act, declared that certain fragile, undeveloped 
coastlines, which were highly exposed to storm damage, could 
not receive any Federal subsidies, grants, or other 
investments. The rising cost of responding to disasters such as 
storms and floods was expected to require steady increases in 
Federal spending, making building in these areas too risky 
and--ultimately--irresponsible. Congressman Evans and Senator 
Chafee were able to pass this law with bipartisan support, and 
President Ronald Reagan signed it in 1982, calling it a 
``triumph for natural resource conservation and Federal fiscal 
responsibility.''
    Madame Chairman, that law has served America well for more 
than 30 years. It has preserved critical coastal habitat while 
protecting communities from storm and flood damage and saving 
countless tax dollars. It is a true win-win-win, and I am 
grateful it has protected many areas in my home State of 
Delaware. I'd ask to submit a recent article by Justin Gillis, 
which appeared in the April 8th, 2013 edition of The New York 
Times, for the Record.
    Thank you.
    The New York Times
    April 8, 2013
    Rebuilding the Shores, Increasing the Risks
    By JUSTIN GILLIS
    This might be a good time to take a look at the most 
important environmental law that nobody has ever heard of.
    The real eState industry fought that law bitterly in 
Congress, but lost, and it landed on Ronald Reagan's desk in 
1982. The president not only signed it, but did so with a 
rhetorical flourish, calling it a ``triumph for natural 
resource conservation and Federal fiscal responsibility.''
    The law--the Coastal Barrier Resources Act--was intended to 
protect much of the American coastline, and it did so in a 
clever way that drew votes from the most conservative 
Republicans and the most liberal Democrats.
    It is worth bringing up today because we are once again in 
an era when our coasts are at risk and our national coffers are 
strained. The $75 billion in damages from Hurricane Sandy, 
coming only 7 years after the $80 billion from Hurricane 
Katrina, told us this much: We need a plan.
    The climate is changing, the ocean is rising, more storms 
are coming, and millions of Americans are in harm's way. The 
costs of making people whole after these storms are soaring. 
Without ideas that stand some chance of breaking the political 
gridlock in Washington, the situation will eventually become a 
national crisis.
    The law that Reagan signed in 1982 might just offer a model 
of how to move forward.
    First, the background:
    Scientists are still figuring out how storms will be 
altered as global warming proceeds, but they are pretty certain 
about some things. Land ice the world over is melting in the 
changing climate, and the ocean is heating up, too, which makes 
the water expand. Those factors are causing the ocean to rise.
    It rose about eight inches in the past century, requiring 
billions of dollars to fight erosion. Recently the rate of 
increase seems to have jumped, to about a foot per century--and 
climate scientists think it will go up quite a bit more. The 
cautious prediction at this point is that we could see two or 
three feet of sea-level rise by 2100, and possibly even six 
feet.
    What will that mean for people living near the shore?
    You might think things would be fine for them until the day 
the ocean finally covers their land. But it does not work that 
way.
    Long before inundation occurs, people will be hit more and 
more often by coastal flooding. In places where it took a huge 
storm to send seawater into living rooms, a routine storm will 
do the trick once the ocean has risen several feet.
    It should be obvious that the more people we move out of 
harm's way in the reasonably near future, the better off we 
will ultimately be.
    But we are doing the opposite, offering huge subsidies for 
coastal development. We proffer federally backed flood 
insurance at rates bearing no resemblance to the risks. Even 
more important, we go in after storms and write big checks so 
towns can put the roads, sewers and beach sand right back where 
they were.
    We are, in other words, using the Federal Treasury to 
shield people from the true risks that they are taking by 
building on the coasts. Coastal development has soared as a 
direct consequence, and this rush toward the sea is the biggest 
factor in the rising costs of storm bailouts.
    So what was so clever about that 1982 law, and how can we 
learn from it?
    Development pressure on the nation's coasts was intense 
back then, but hundreds of miles of barrier islands and beaches 
were as yet unspoiled. Environmental groups would have loved a 
national ban on further coastal development, but conservatives 
would never have gone along with that.
    Two Republicans, Senator John H. Chafee of Rhode Island and 
Representative Thomas B. Evans Jr. of Delaware, found the magic 
formula. Their bill simply declared that on sensitive 
coastlines that were then undeveloped, any future development 
would have to occur without Federal subsidies.
    In other words, no flood insurance and no fat checks after 
storms.
    The law did not prohibit anybody from building anything. 
And in fact, some development has occurred on lands in the 
redlined zone. But the law has mostly held, discouraging 
development along some 1.3 million acres of American 
coastline--a monumental triumph that continues to pay 
dividends.
    So here is a modest idea. As the first plank of our plan 
for coping with storm risk, what about expanding the boundaries 
of the program that Reagan took such pride in?
    That is not to be cruel: people deserve humanitarian help 
after big storms. But Robert S. Young, head of the Program for 
the Study of Developed Shorelines at Western Carolina 
University, thinks we have to start weaning beach towns from 
the welfare roll.
    One way to begin, he suggests, would be to identify the 
towns in the riskiest areas, the ones that the taxpayers keep 
bailing out again and again.
    Perhaps we say to them: You get one more shot. We will make 
you whole after the next big storm, and if you choose to use 
the money to rebuild, then you are on your own.
    Just maybe, in some areas that should never have been 
developed in the first place, the necessary retreat from the 
beaches would finally begin.

    Senator Boxer. Well, thank you very much. And we have been 
rejoined by Senator Wicker, so we will hold off on the panel to 
hear his 5 minutes.
    Go right ahead, Senator.

              STATEMENT OF HON. ROGER F. WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Well, I ran up the stairs, Madam Chair, so 
I was hoping Senator Carper would take his additional minute so 
I could get my breath back.
    Senator Boxer. Well, we could ask him to sing.
    Senator Wicker. Well, yes.
    [Laughter.]
    Senator Boxer. I would do it, too.
    [Laugher.]
    Senator Wicker. Depending on his expertise.
    But thank you very much, Madam Chair. You have billed this 
hearing as a forum to focus on the science of climate change. I 
want to reiterate the importance of treating various scientific 
views on climate science with deference. Comments concerning 
some researchers as having a flat earth mentality unnecessarily 
polarize what should be a robust dialog.
    I also hope we can discuss today the serious implications 
of the Administration's unilateral move to execute its 
environmental agenda. In his recent speech, the President 
described his commitment to a coordinated assault on climate 
change. I think many of my colleagues would agree that we do 
expect that coordination to include the congressional oversight 
of Federal policy decisions.
    One of the most disturbing actions outlined by the 
President's climate plan is the regulatory push against the 
coal industry which would have a severe and widespread impact. 
With these regulations, the President has confirmed what many 
of his critics have long alleged. Rather than advancing a truly 
all of the above energy strategy, this Administration is 
determined to wage an all out war on coal.
    Both Republicans and Democrats in the Congress realize the 
consequences of issuing drastic regulations on coal which 
remains a primary source of energy production in America and 
fuels 37 percent of our electricity, 37 percent of our 
electricity still comes from coal.
    Under the severe standards being proposed, many coal fired 
plants would go bankrupt or close, putting more than 250,000 
American jobs at risk. Businesses would feel the effect of the 
stricter rules in the form of additional compliance costs and 
consumers would be saddled with higher energy bills.
    Now, regarding sound science, the Administration continues 
to defend its aggressive policies with assertions that global 
temperatures are on the rise, dismissing disputed information 
from scientists and scholars. Recently released data, disputed 
data I will acknowledge, showed temperature have stayed flat 
over the past 15 years despite rising carbon dioxide emissions. 
I would note that some of these data come from the United 
Nations, the recorded temperatures which were much lower than 
predictions from climate models that the President has himself 
cited.
    I recently joined seven of my colleagues on this Committee 
in requesting copies of the climate data and analysis used to 
support the President's statements. In our letter to Gina 
McCarthy, we expressed our concerns that the agency had not 
sufficiently responded to past requests for this information. 
The President's intent to pursue a costly regulatory roll out 
demands proof of sound science as well as transparency.
    Over time, studies by scientists and researchers have 
actually shown there is no climate signal limited to extreme 
weather events. In fact, one of our witnesses today can speak 
directly to this issue. I also realize there are those on the 
other side of the issue.
    At the very least, I think it is time for some tolerance in 
the public discourse regarding the many scientific viewpoints 
on climate change. Respect should be shown to those who have 
done the research and come to a different conclusion.
    I remain committed to working with my colleagues in the 
Congress to reign in the Administration's intrusive power grabs 
to push a radical climate agenda that will not help but will 
cost jobs. Unwarranted rules and restrictions are unfair to all 
Americans who will bear the cost of higher energy prices.
    Thank you, Madam Chair.
    Senator Boxer. Well, this is the most fascinating time. Now 
we have the great Senator from New Mexico who is here. We are 
going to call on you. We are just about to go our panel but we 
will hold off to hear your opening statement.
    I want to say, Senator, I am going to give this to you. 
This is an EPA document with maps and graphs and I put it in 
the record and I am going to send it over to you now. Maybe it 
is not enough but EPA clearly has made this case publicly that 
they made to the President.
    Should we send it over to you?
    Senator Wicker. Please pass it over.
    Senator Boxer. Send it over, special delivery.
    Senator Wicker. And I will deliver contrary scientific data 
to the Chair.
    [Laughter.]
    Senator Boxer. Senator, you said you did not know what they 
were thinking, and we think you should read this first. I 
guess, oh, never mind, I will not go there.
    [Laughter.]
    Senator Boxer. Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you, Madam Chair. Madam Chair, I know 
the witnesses have been waiting here for an hour to speak so I 
will try to be very brief. And I would just ask to put my full 
statement in the record.
    Senator Boxer. It will be done.
    Senator Udall. Climate change, global warming, climate 
disruption are having a huge impact in the Southwest. I think 
most of the computer models we see is that the Southwest will 
probably be twice the temperature rise as other places in the 
United States. And we are seeing it right now on the ground.
    I will give you an example. I was just out in a little town 
called Tucumcari, New Mexico. It has always had a water project 
that has delivered water to farmers, 700 farmers and ranchers. 
That water project is the last 5 years, four out of the last 
five, has not delivered any water. That example is being spread 
throughout New Mexico in terms of our ability to have the water 
resources we need to develop, to grow and to do the economic 
development.
    So, we are seeing it in water. We are seeing it in the snow 
pack which recharges our aquifers, we are seeing it in these 
catastrophic forest fires which have grown in the last 10 or 15 
years very dramatically. In terms of the amount of acreage, we 
are having larger and larger acreage and setting records every 
year.
    But also the thing about catastrophic forest fires is they 
burn much hotter than they have in the past. And what you have 
is a soil that is parched. They talk about crown fires in these 
catastrophic fires with the temperatures reaching 1,000 degrees 
and baking the soil. So it is not, after the fire is over, the 
soil is not there to regenerate things.
    So, there are a number of impacts. I just wanted to mention 
those and just say that I think each of us should look and 
Senators all across the Country in their communities, and you 
can see this impact now.
    I very much appreciate what you all are doing and 
appreciate the panel's work and really look forward to hearing 
from them today.
    And with that, and putting my statement in the record, I 
would yield back.
    Thank you, Madam Chair.
    [The prepared statement of Senator Udall follows:]

               Statement of Hon. Tom Udall, U.S. Senator 
                        from the State of Mexico

    The climate of the southwest is in a State of 
transformation. Recent years have seen our communities 
struggling with higher temperatures, drought and forest fires 
on an almost constant basis. The tightrope we walk to balance 
water supply and the multiple demands for its uses is 
increasingly precarious.
    The earth is warming and so is the West. New Mexico's 
average temperatures have been rising 50 percent faster than 
the global average in recent decades. Our winters are warmer 
and the season shorter, while summer heat has entered new 
territory for extremes.
    In addition to the heat, the region's water woes compound 
the challenges. The snowpack that is so vital for our streams 
and rivers--and in turn for our farmers, ranchers and cities--
is in steep decline. The last 10 years have seen the lowest 
snowpack on record in the West, and the latest research 
suggests that Colorado snowpack may decline even further by 13 
percent by mid-century.
    New Mexico's most important source of surface water is the 
Rio Grande and it depends on snowpack for one half to three 
quarters of its dependable water from the mountain snowpack in 
Colorado and Northern New Mexico. River-flows in the Colorado 
River Basin are already declining and projected to shrink 
further, putting huge pressure on Western states water supply 
for agriculture and power generation.
    The Southwest is still in the grip of a multi-year drought. 
Is it possible that severe drought will be with us more often 
from now on? Signs from thousands of miles away in the Arctic 
suggest that this may be the case. Scientists say that 
unprecedented loss of Arctic snow and sea ice cover has changed 
the way hemispheric weather systems operate increasing the odds 
of droughts manifesting across our country.
    Warmer winters, water stress and drought are wreaking havoc 
with forests across the Southwest. Iconic pinon pine forests 
have been dying across thousands of square miles across 
Arizona, Colorado, New Mexico, and Utah due to heat stress and 
drought, as well as the depredations of pine beetles. In 
Arizona and New Mexico alone, warm temperatures have led to 
bark beetles and wildfires killing 20 percent of trees over the 
last 30 years.
    Massive wildfires have been prevalent throughout the 
region. Last year, New Mexico suffered the largest wildfire 
ever recorded in the State--the Whitewater-Baldy fire that 
burned a staggering 259,000 acres. A suffocating pall of smoke 
seemed to hang over the entire west last summer.
    The threat of climate change is no longer a threat. It is a 
reality and it is predicted to intensify. We need to respond. 
We can no longer just point to global trends--this is local. 
The impacts are affecting us and damaging our communities. We 
need to accept that this crisis is now at our front door and we 
need to take action to defend our families, homes and 
communities.

    Senator Boxer. Well, thank you.
    And now it is your term, experts, to make your case to us.
    So, Dr. Heidi Cullen, Chief Climatologist at Climate 
Central, welcome.

            STATEMENT OF HEIDI CULLEN, PH.D, CHIEF 
                 CLIMATOLOGIST, CLIMATE CENTRAL

    Ms. Cullen. Chairman Boxer, Ranking Member Vitter, 
Committee members, thank you for the opportunity to speak 
today.
    I am Heidi Cullen. I serve as Chief Climatologist at 
Climate Central which is an independent climate science 
research and journalism organization. We take no policy 
positions.
    My testimony aims to give the Committee an overview of how 
extreme weather events are affected by human-induced climate 
change which is caused primarily by heat-trapping emissions 
from the burning of fossil fuels. The bottom line is certain 
types of extreme weather are on the rise in the United States. 
Their links to climate change are clear. Heat waves and heavy 
downpours are becoming more frequent and more intense.
    In the Midwest and in the Northeast, we are already seeing 
increased flooding. In the West, higher temperatures and 
decreased precipitation are already helping drive an increase 
in wildfires and droughts. Let me put two recent examples into 
their broader climate context because in each case there is a 
clear link to human-induced climate change.
    First, the deadly Yarnell Hill fire which, as Chairman 
Boxer mentioned, killed 19 elite firefighters last month. It 
played out in the midst of one of the most extreme heat waves 
on record in combination with prolonged drought and low snow 
pack. Extreme heat, drought, low snow pack. These are three 
Western wildlife ingredients that are made more likely by 
human-induced climate change. Overall, hotter, drier weather 
and earlier snow melt are helping wildfires in the West start 
earlier in the year, last later into the fall and burn more 
acreage.
    Couple this with long-standing fire suppression policies, 
population growth and development, these fires now threaten 
more homes and cause more evacuations. Climate models predict 
an alarming increase in large fires in the West in coming 
years.
    Second, Hurricane Sandy, the largest Atlantic hurricane on 
record, took an unusual left hook into my home State of New 
Jersey. Human-induced climate change can affect storms like 
Sandy in different ways.
    First, ocean temperature. Waters off the East Coast were 
running about 5 degrees Fahrenheit above average during the 
summer of 2102. Global warming is already contributing to 
warmer ocean temperature and warmer oceans fuel stronger 
storms. As a result, the intensity of the strongest hurricanes 
is expected to increase.
    Second, blocking. An area of high pressure near Greenland 
blocked upper air flow over the Atlantic, forcing Sandy to take 
this left hook. More frequent blocking events may be related to 
the loss of Arctic sea ice which is melting largely as a result 
of warmer temperatures caused by human-induced climate change.
    Third, sea level rise gave Sandy's nine foot storm surge a 
higher launching pad. Global warming is causing sea level to 
rise because water expands as it warms and melting land-based 
ice adds water to the oceans. One recent study estimates that 
global sea level rise caused Sandy to flood roughly 25 square 
miles more than it would have, putting the homes of an 
additional 38,000 people in New Jersey and 45,000 in New York 
City below the storm tide and in harms way.
    Switching gears a little bit. Despite continued record 
warmth and a steady rise in atmospheric greenhouse gas 
concentrations, some have questioned whether global warming has 
stopped because the rise in global mean surface temperature has 
been slower over the past 15 years. This is an area of active 
research that is incredibly important to our understanding of 
the interplay between natural climate variability and human-
induced warming. What is very clear is that global warming has 
not stopped.
    I would like to stress that there is just very much more to 
our climate system that just the atmosphere. The land surface, 
ice sheets and the oceans all carry the burden of human-induced 
warming. Our oceans currently absorb more than 90 percent of 
the excess heat trapped by rising carbon dioxide levels.
    So, the temperature rise in the atmosphere may have 
temporarily slowed but the warming continues to penetrate into 
other components of our climate system. During the past decade, 
it appears roughly 30 percent of the excess heat has gone into 
the deep ocean below 2,300 feet. Heat stored in the deep ocean 
matters. It does not go away. It just prolongs the effects of 
global warming.
    In conclusion, certain types of extreme weather events in 
the United States have become more frequent and intense, 
particularly heat waves and heavy downpours. These extremes 
have real consequences for people and the economy. Heat waves 
are the No. 1 weather-related killer. Heat waves make droughts 
and wildfires worse. Heavy downpours set the table for flooding 
and sewage overflows.
    This new normal that we are moving into of increased 
extremes is really still a glimpse of what lies ahead is we do 
not change course.
    Thank you and I look forward to your questions.
    [The prepared statement of Ms. Cullen follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        
    Senator Boxer. Thank you so very much.
    We call on Mr. Frank Nutter, Reinsurance Association of 
America. It is nice to see you again.

    STATEMENT OF FRANKLIN W. NUTTER, PRESIDENT, REINSURANCE 
                     ASSOCIATION OF AMERICA

    Mr. Nutter. Madam Chair, Senator Vitter, thank you for the 
opportunity to testify.
    Reinsurance is essentially the insurance of insurance 
companies and one of its widely recognized purposes is to allow 
insurers to transfer natural and manmade catastrophe risk from 
their books.
    Insurers are dependent, more dependent, on the vagaries of 
climate and weather than any other financial services sector. 
The industry is at great financial peril if it does not 
understand global and regional climate impacts, variability, 
developing scientific assessment of a changing climate. And 
through its pricing structure, it is also a mechanism for 
conveying the consequences of decisions about where and how we 
build and where people live. The industry really needs to be 
very proactive in dealing with that.
    Our industry is science-based. Blending the actuarial 
sciences with the natural sciences helps us with an 
understanding about climate and its impact on a variety of 
weather conditions.
    Insurers see climate primarily through the prism of extreme 
natural events. I have included a variety of charts and slides 
in the presentation, but the first one is from Munich 
Reinsurance showing the rising number of natural catastrophes 
globally and in the United States.
    In the 1980's, the average number of natural catastrophes 
globally was 400 events per year. In recent years, the average 
is 1,000. Munich Re's analysis suggests that the increase is 
driven almost entirely by weather-related events.
    It is indisputable that the recent rise in damages, insured 
economic and uninsured, is heavily influenced by the 
concentration of people and property in geographically 
vulnerable areas. Urbanization, increased development and 
population shifts have placed more people with destructible 
assets and the most impact, mostly impacted by extreme weather.
    NOAA's recent State of the Coast Report observes that of a 
population of 313 million, 39 percent live in coastal shoreline 
counties and 52 percent live in watershed counties. NOAA 
reports there are 49 million housing units in these counties 
and we are going to see a population increase of nearly 10 
million people before the next census in 2020.
    The insured coastal property values along the East and Gulf 
coasts now totals nearly $10 trillion. The research and 
consulting firm Corelogic reports that there are 4.2 million 
homes along the Gulf Coast and Atlantic Coast exposed to storm 
surge, the most significant factor in damages associated with 
Superstorm Sandy. One million of these properties are in the 
category of extreme risk to storm surge.
    Catastrophe-modeling firm AIR estimates the insured value 
of coastal properties, and this is replacement costs, not 
market value, is expected to increase at a rate of 7 percent a 
year, which means that they would double every decade.
    I provided a variety of charts suggesting that thunderstorm 
convective storms are also creating significant losses. But 
severe wind is not the only peril reflecting this pattern. The 
2012 U.S. drought alone cut crop yields, reducing the Third-
Quarter 2012 GDP by .4 percent, the equivalent of another 
Superstorm Sandy.
    The question, of course, is what if the past is not 
prologue and in a changing climate whether economic and social 
trends exacerbate this impact and that future projected losses 
from past events reflect rising exposures in areas proven to be 
at high risk. I have included a chart reflecting past events 
and what would happen if they occurred in the same place today 
given property values and people.
    In a study on climate change impacts conducted for FEMA by 
consulting firm AECOM, the firm concluded that the typical 100-
year flood plain nationally will grow by 45 percent and by 55 
percent in coastal counties. Notably in this report, they 
attribute 70 percent of the projected growth in the 100-year 
flood plains to climate change and 30 percent to expected 
population growth.
    I have also included a chart about disaster assistance, 
declarations that have been made and funded by this Congress, 
and also a study by Dr. David Cummins suggesting that the 
average annual future disaster assistance related to storms, 
weather and climate events is likely to be $20 billion a year. 
Currently, Congress funds FEMA at $1 billion a year for this 
purpose.
    I have also included statements from Swiss Reinsurance 
which states that climate change has the potential to develop 
into our planet's greatest environmental challenge for the 21st 
Century. The industry, Swiss Re says, can only be effective in 
its role if the regulatory and legislative framework 
establishes the right incentives for emissions reductions and 
adaptation on a global scale.
    Munich Re says anthropogenic climate change is believed to 
contribute to this trend, a jump in catastrophe losses, though 
its influences vary by peril and in different ways. It is 
crucially important, Munich Re says, for us as risk managers to 
find improved solutions for adaptation and mitigation.
    And last, I have cited the Geneva Association, which is a 
research think tank on insurance economics, which says there is 
therefore a need for urgent and concerted mitigation action to 
reduce greenhouse gas emissions. We therefore need concerted 
adaptation as well to avoid the predicted impacts of climate 
change.
    Thank you very much, Madam Chair. I appreciate the 
opportunity.
    [The prepared statement of Mr. Nutter follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Boxer. Thank you so much, Mr. Nutter.
    Mr. KC Golden, Policy Director, Climate Solutions.

    STATEMENT OF KC GOLDEN, SENIOR POLICY ADVISOR, CLIMATE 
                           SOLUTIONS

    Mr. Golden. Thank you, Madam Chair, Senator Vitter, Members 
of the Committee.
    My name is KC Golden. I am the Policy Director for Climate 
Solutions, a Northwest regional organization promoting 
practical solutions to climate disruption.
    Last month, I had the opportunity to testify at a House 
subcommittee hearing on the issue of coal export and the 
witness seated next to me, representing the manufacturers at 
that hearing, objected to the idea that we would consider the 
climate impacts of coal export in evaluating these export 
proposals, fearing that might be a slippery slope that would 
lead to climate impact tests for other kinds of commodities 
like corn and toys.
    Now, I think common sense can be our guide here. Corn and 
toys are not among the leading preventable causes of global 
climate disruption. The increasing use of coal around the world 
is, so that is something we ought to consider.
    But I think the witness had a fair point in at least one 
respect. The issue of how and where exactly in the economy we 
account for the costs of climate pollution is, indeed, a very 
important consideration in climate policy design.
    But in June 2013, last month, 25 years after our foremost 
climate scientists went before Congress and testified that 
climate change was indeed a serious problem that required 
decisive action, a full quarter of a century ago, we were not 
having a hearing about climate policy design in the U.S. House. 
We were having a hearing about how to increase fossil fuel 
exports.
    At that same hearing, the Army Corps of Engineers testified 
that they would not look at the climate impacts of coal exports 
in their review and ironically enough, on that same day, the 
Commander of the Corps announced his support for more 
aggressive flood protection standards, stronger, more expensive 
levees, to deal with climate impacts.
    So, we can count on the Corps to request larger budgets to 
deal with the aftermath, to deal with climate impacts, but we 
can apparently not count on the Corps to analyze those impacts 
in the context of decisions which might help us actually 
prevent some of them.
    We are setting ourselves up for pounds of cure, tons of 
cure, at public expense because we lack the responsible climate 
policies that might provide Americans with a prudent ounce of 
prevention.
    Now, my written testimony affirms in some detail that we 
have no shortage of practical, economically attractive 
solutions available to us right now. Indeed, in the Northwest 
and throughout America Americans are implementing those 
solutions. We are reducing our climate pollution and we are 
building healthier communities and stronger economies as we go. 
But we cannot implement these solutions at the necessary pace 
and scale without the active partnership, the leadership, of 
our Federal Government.
    Now, there are, of course, many important Federal climate 
initiatives underway now and without diminishing their 
importance in any way, I will simply submit that they are not 
remotely sufficient to the task in the absence of a credible 
national climate policy commitment with at least the following 
three features.
    First, we need responsible science-based limits on climate 
pollution. This would be the clearest possible signal to energy 
markets, to our international partners, to ourselves, to our 
kids, that we are stepping all the way up to the climate 
challenge.
    Second, we need a fair price for carbon pollution. Free and 
unlimited carbon dumping is the prevailing climate policy of 
the United States right now. When prices tell the truth about 
costs, markets will function more effectively, they will 
allocate capital more effectively, and climate solutions will 
accelerate.
    Third and finally, we need an end to any Federal support 
for major new capital infrastructure investments that make the 
problem impossible to solve. This does not mean that we need to 
cease fossil fuel consumption overnight. But it does mean that 
we must avoid major, new long-term capital intensive 
infrastructure investments that lock in dangerous climate 
disruption. We simple need to stop digging the hole deeper if 
we hope to get out of it.
    Madam Chair, this final, simple, common sense principle, it 
is vital, I believe, to ensuring the integrity and the 
credibility of America's commitment to climate solutions. Our 
policy must be a way to answer to the growing number of victims 
of climate-related disasters and more importantly to our kids, 
the prospective victims of still-preventable climate disasters.
    As we enter now an era of climate consequences that are so 
vivid and that you have heard described here today, we need a 
national policy that enables us to look our kids in the eye and 
say in no uncertain terms that we can and will do what it takes 
to protect them, to make this better. But they will not believe 
us until we stop making it worse.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Golden follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Senator Boxer. Thank you so very much.
    Now we will hear from Ms. Diana Furchtgott-Roth, Senior 
Fellow, Manhattan Institute for Policy Research.
    Welcome.

 STATEMENT OF DIANA FURCHTGOTT-ROTH, SENIOR FELLOW, MANHATTAN 
                           INSTITUTE

    Mr. Furchtgott-Roth. Thank you very much for inviting me to 
testify today.
    So, we have heard a lot about climate change. I am an 
economist. I talk about the costs of these offsetting policies 
and the benefits. And I will leave the discussion as to whether 
CO2 is a pollutant, even though I am breathing it out right 
now, to other better-qualified people than myself.
    But I think what is clear is that, even if greenhouse gas 
emissions are affecting the climate, actions by the United 
States, such as the one that President Obama has proposed, are 
not going to be helpful because U.S. emissions are about 17 
percent of total global emissions. And if China and India are 
not going to follow suit, then we are going to be hurting 
ourselves and our economy for no good reason.
    We are still 2.1 million jobs below the level of December, 
2007 when the recession started and it is very important that 
we keep the economy active. We have had many companies move to 
the United States because of our low energy prices and for us 
to raise our energy prices, without having any affect on global 
emissions and climate change, is cutting off our nose to spite 
our face.
    The costs of the Kerry-Lieberman and Waxman-Markey bills 
were too large for a Democratic Congress with a Democratic 
President to pass and the revenues from those bills, which 
would have been $646 billion over 8 years, would have been the 
largest in tax history.
    And just recently, on March 22, 2013, the Senate rejected 
the White House amendment which you proposed, Mr. Senator, that 
would have had funds from a carbon tax be used to offset other 
kinds of taxes in the United States. So, just as recently as 
March the Senate rejected a carbon tax.
    I think that what is important is that to reduce greenhouse 
gas emissions in the least costly manner, what it makes more 
sense to do is to assist China and India in reducing their 
carbon emissions. We just heard from Dr. Golden about coal 
exports. Well, in fact our coal is cleaner than the coal that 
is burnt in China.
    So, if we were to export our coal to China, that might 
reduce Chinese emissions, or, if we helped China and India 
develop their sources of shale gas so that they could move from 
their coal fired plants and also wood-burning systems to more 
efficient natural gas power plants, that would have a bigger 
effect of decreasing global emissions than putting in place the 
measures that the President has proposed to do by regulation.
    Congress could also fund research into geo-engineering 
solutions such as solar radiation management which potentially 
diminishes the warmth caused by the sun's rays. This is 
something that if we put into place here in the United States 
it would have global effect, it would reduce global 
temperatures, whereas if we put a CO2 tax, greenhouse gas 
taxes, into effect, it would not have any effect or only a 
marginal effect on global temperatures. These measures, geo-
engineering and helping other countries transform their 
technology, would be a small fraction of what costs would be.
    We have heard a lot about green jobs and President Obama 
talks a lot about green jobs and how this new technology 
creates jobs. But the Bureau of Labor Statistics, in its latest 
report this spring, just found 3.4 million green jobs, many of 
those have be relabeled from other kinds of jobs such as 
plumbers who installed low-flow toilets were considered to have 
green jobs whereas they had employed other kinds of technology.
    The costs of energy falls disproportionately on low-income 
Americans. Data from the Bureau of Labor Statistics shows that 
the lowest fifth spend 24 percent of their income on energy 
whereas the highest percent spend 4 percent of their income. 
So, putting in place measures that increase the costs of energy 
falls disproportionately on lower-income Americans. They also 
fall disproportionately on lower-income regions all through the 
United States where coal fired plants and coal mining occurs.
    Thank you very much for giving me the opportunity to 
testify.
    [The prepared statement of Ms. Furchtgott-Roth follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Thank you.
    And last, but not least, Dr. Robert P. Murphy, Senior 
Economist, Institute for Energy Research.

STATEMENT OF ROBERT P. MURPHY, SENIOR ECONOMIST, INSTITUTE FOR 
                        ENERGY RESEARCH

    Mr. Murphy. Chairman Boxer, Ranking Member Vitter and 
Members of the Committee, thank you for the opportunity to 
testify today on this important topic.
    The social cost of carbon is a concept that was developed 
in the academic literature on the economics of climate change. 
So far, it has been used to help justify over 35 Federal 
regulations or sometimes more than 20 percent of the alleged 
benefits of these regulations are derived from the social cost 
of carbon.
    Now, as I will explain, the Administration's calculation or 
estimate of the social cost of carbon is malleable and 
arbitrary and therefore is not appropriate for the Federal 
Government to use to justify regulations. A large fraction of 
the alleged benefits from reducing carbon dioxide emissions are 
incredibly speculative as they occur in 50, 100 or even 250 
years in the future.
    As I will explain, the estimated size of the social cost of 
carbon is heavily dependent on the discount rate that is used 
in the analysis, and the Administration on this point has 
ignored OMB's guidance.
    In fact, this concept is so open-ended that we can generate 
estimated social cost of carbon that are very high, or close to 
zero, or even negative just by adjusting some key parameters. 
What this means is that the economists can produce just about 
any estimate of the social cost of carbon desired.
    Now, in theory, the social cost of carbon quantifies in 
dollar terms the damages from emitting an additional unit of 
carbon dioxide because of its presumed acceleration of future 
climate change. As I have said, it has been used to justify 
policies so it is imposing stricter fuel economy standards by 
giving quantifiable benefits in dollar terms from these 
policies' impact on emissions.
    The social cost of carbon has been in the news lately 
because just recently, in May, the Administration's working 
group, without public comment or notice, dramatically increased 
its headline estimate of the social cost of carbon by around 50 
percent from its previous estimate that was made back in 2010. 
Back then, it estimated about $22 per ton of CO2 and then now 
it just bumped it up to $33 a ton, just in May.
    Now, to understand where these numbers come from, let me 
briefly explain how the working group generates its figures. 
First, they selected three popular models, computer models, 
from the literature of the Global Economic and Climate System, 
and then they used those models to run thousand of simulations 
through the year 2300.
    Now, what may surprise you is in these computer simulations 
chosen by the working group under certain scenarios common 
dioxide emitted today can sometimes produce net benefits to 
humanities because, just for example, modest warming can boost 
agricultural productivity, reduce coal-related deaths in the 
winter and lower heating bills.
    But eventually in these models, they assume that an extra 
ton of emissions today will start producing net damages. The 
social cost of carbon then is an estimate of that flow of 
possible up-front benefits then followed by a flow of damages 
through the year 2300.
    So, given this set up of how they compute this number, the 
discount rate that we use in the analysis will have a huge 
impact. Just to give you an example, in the working group's May 
estimate, the current social cost of carbon is only $11 per ton 
if we use a 5 percent discount rate, but it is $52 ton if we 
use a 2.5 percent discount rate.
    So, I want to stress that this range in the estimate from 
$11 up to $52 a ton, that has nothing to do with the climate 
science. That range itself is driven entirely by just changing 
the discount rate from 5 percent down to 2.5 percent.
    So, you can see in this context how important that choice 
of discount rate is. And on this matter, it is relevant that 
the working group explicitly disregarded OMB's clear guidance 
that when providing cost benefit analysis of Federal 
regulations, one of the estimates should be computed with a 
discount rate of 7 percent.
    Now, without seeing the actual underlying data we cannot 
know for sure what the results would have been from the working 
group's analysis had they reported it at 7 percent, but it 
probably would have produced a social cost of carbon again 
following all of their other procedures and just reporting it 
using 7 percent, a social cost of carbon close to zero, in 
which case the Administration's rationale for limiting 
emissions would collapse.
    OMB also required that cost benefit analysis be conducted 
in terms of domestic impacts with the global impacts merely 
being optional. Yet again, the working group disregarded this 
clear guidance and just reported the global figure.
    Just to give you an example of the impact of that choice, 
the recent headline figure from the May report of $33 a ton is 
a global figure. Had they reported just the domestic social 
cost of carbon, it could have been as low as $2 per ton using 
the working group's own range of adjustment factors to go from 
global to domestic.
    So, in summary, the social cost of carbon is not an 
objective feature of the world that is out there that we are 
waiting for economists to go measure and then give feedback to 
policymakers. Rather, it is generated within computer 
simulations that make projections centuries into the future.
    Even more troubling, the working group disregarded two OMB 
guidelines on how to compute and report these figures. Clearly, 
Federal policy should not be formed on the basis of such a 
dubious concept.
    Thank you.
    [The prepared statement of Mr. Murphy follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Thank you very, very much.
    So, I want to fill everybody in on what is happening on the 
floor. We are trying to get an agreement, apparently, for a 
vote at 12:15. This puts a lot of pressure on us. We have got 
to get to our next panel.
    I talked to Senator Vitter and he and I agreed, if each of 
us could hold our questions to 4 minutes? So, hone in on the 
one issue that you care about, and the panel can answer 
succinctly, because we need to move on.
    I am going to say this. I am always interested in how these 
various organizations you represent are funded. So I always 
look up all the five and obviously the Insurance Association is 
behind what you said and we looked at all of the others.
    I think it is important to note that the two Republican 
witnesses, there is nothing wrong with this, but I think it is 
important to note where the funding for your organizations 
comes from. In the case of Dr. Murphy, it is a, and I will put 
these documents into the record, it is the ExxonMobil 
Foundation and one of the main directors on that board of 
directors is the Managing Director for Federal Affairs at the 
Koch Brothers.
    And Ms. Diane Furchtgott-Roth, who said she was not going 
to talk about carbon but she was definitely breathing it out 
which I think we knew but it was good to remind us of that, the 
Manhattan Institute has accepted almost $2 million from the 
Koch foundations and also huge amounts of money from 
ExxonMobil.
    I think it is just important to note because I take up what 
Senator Sanders said and I do not think that it could be 
overlooked, that 98 percent of the scientists are saying one 
thing and 2 percent are saying something else. And yet, we have 
endless money behind the 2 percent, the few. And the tobacco 
companies tried that. They fought it. They took an oath to tell 
the truth. They lied. OK? And eventually, the truth came out. 
And eventually the truth will come out here.
    But my point is really repeating what my colleagues have 
stated. This is not a game. We are playing with the lives of 
the future generations. I was at that wonderful dedication of 
the William Jefferson Clinton Building yesterday and I was 
researching what Teddy Roosevelt said over and over again in 
different ways. I do not have the exact quote. But what he said 
is we owe it to our children not to steal their resources. It 
is dangerous. It is wrong. He said it in a far more eloquent 
way that I am.
    So, I am taken with what you said, Mr. Golden, about doing 
things that make things worse. The Hippocratic Oath, do no 
harm. And I want to hone in on the Keystone XL Pipeline, but 
not really on the pipeline, the pipeline does not do any harm 
itself, it is what goes into it.
    So, I wanted you to explain to us about tar sands. To me, I 
have been told it is one of the dirtiest fuels on the planet 
and it would create at least 17 percent more carbon pollution 
than domestic oil and it could create 30 percent more carbon 
than domestic oil if the full range of products produced from 
tar sands crude, such as petroleum coke, is taken into account.
    I wanted to ask you, when you say, do not do anything to 
make it worse, are you thinking about that, tar sands?
    Mr. Golden. That is a classic example and one of the most 
important ones before us right now. That would tap into one of 
the largest carbon reserves on the planet. Yes, it is dirtier 
than conventional oil but conventional oil is already causing 
the climate disruption that we are seeing now. It would prolong 
the world's addiction to fossil fuels and to oil in particular 
in ways that would make it impossible to solve climate change 
in the future by locking in long-term infrastructure decisions 
that prevent us from reducing our emissions as ambitiously as 
we need to.
    Senator Boxer. Thank you. Senator Vitter.
    Senator Vitter. Thank you very much.
    I want to go back to a focus of Senator Sessions which is a 
statement of President Obama and asking for the data, the 
science behind it. And again, President Obama said ``The 
temperature around the globe is increasing faster than was 
predicted even 10 years ago.' Do any of the witnesses agree 
with that statement and, if so, what is the data set you rely 
on?
    Ms. Cullen. I think right now we need to focus on the fact 
that the warming is happening very, very quickly and as with 
respect to the projections of the future, we expect it to warm 
even more quickly as we go forward. So, with respect to 
President Obama's specific statement, I cannot comment on that. 
But the bottom line is that greenhouse gases have continued to 
move quickly in the atmosphere and the warming has continued.
    Senator Vitter. And so you think the surface temperature 
increase has continued in the last 10 to 15 years?
    Ms. Cullen. Well, as I mentioned in my testimony, I think 
it is important not to focus specifically on the atmosphere. 
So, as I said, warming has, the temperature rise has slowed in 
the atmosphere despite continued warm decades, record-setting 
decades, the warming over the past 15 years has slowed but, it 
is----
    Senator Vitter. And what would explain that?
    Ms. Cullen. Sir, explaining the fact that the atmosphere 
temperature rise has slowed is because the warming has gone 
into other component of our climate system, most notably the 
deep ocean. So, the warming has by no means stopped. It is 
merely penetrating into other aspects of our climate system and 
that is really important to note.
    Senator Vitter. OK. And Ms. Cullen, one narrative of this 
hearing seems to be that extreme weather is dramatically 
accelerating. Now, most of the folks telling that story and 
most of your testimony were about examples, anecdotal evidence. 
And that is relevant but that is obviously not a trend, that is 
not data, that is not science. So, what scientific trend would 
you point to with regard to extreme weather?
    Ms. Cullen. Sir, I think there are very clear trends that 
we can point to, both with respect to heat waves, for example, 
and heavy downpours. So, for example, in my part of the world, 
in the Northeast, here was seen a roughly 73 percent increase 
in heavy downpours. Those heavy downpours have increased across 
the United States.
    Senator Vitter. Over what period of time?
    Ms. Cullen. Starting in the 1950's, moving forward. So, a 
very significant increase in heavy downpours that we can see in 
the observational record.
    Senator Vitter. Would you point to any other metric besides 
heavy downpours?
    Ms. Cullen. I would say that we could point to several 
different metrics. We can see an increasing trend in flood 
magnitude. When we look at the U.S. as well, we can see that 
there has been an increase toward drought in the Southwest and 
that is being pushed by the fact that we are seeing less 
precipitation out West and we are seeing this increased heat in 
the West.
    Senator Vitter. Well, let me just show you some long-term 
trends that I think was made available to you because it is 
part of the testimony of one of our other panelists on panel 
two. And it seems to suggest a significantly different story 
and I just wanted you to react. Put those up, quickly.
    So, this is heat waves long term. This is drought, long 
term, the whole 20th Century.
    Ms. Cullen. Sir, I think this is an important issue.
    Senator Vitter. Let me just walk through it.
    Ms. Cullen. Sure.
    Senator Vitter. These are wildfires, obviously peak here 
but recently a change.
    Senator Boxer. We are going to have to keep it moving, 
David.
    Senator Vitter. Sure. These are cyclone landfalls globally 
and these are hurricane landfalls in the U.S.
    Senator Boxer. We have to move it on.
    Senator Vitter. OK, I would just like Dr. Cullen's reaction 
to that.
    Senator Boxer. OK, Dr. Cullen, would you respond?
    Ms. Cullen. Yes. I think there is a really quick response 
to this and that is it is really important for us to not look 
at the Nation as this average, that what we are seeing now is 
how the warming is in specific regions. So, in the Southwest we 
are seeing this increase in drought and wildfires, in the 
Midwest and in the Northeast we are seeing this increase in 
flooding.
    So, I think of the observational data record, which you 
just showed, annually and nationally averaged, but we also have 
to think of the physical mechanisms so that we know, that as it 
warms the Southwest will be particularly impacted as we have 
more moisture in the atmosphere, the Northern tier will see 
this shift in more storm tracks. So, think of it as a regional 
signal.
    Senator Boxer. OK. I ask unanimous consent to place in the 
document a NOAA document, Billion Dollars Weather Climate 
Disasters from 1980 to 2012, which I think everyone will find 
instructive.
    [The referenced information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Whitehouse.
    Senator Wicker. Observing the right to object, can Senator 
Vitter's reduced, well, let me ask unanimous consent that the 
8.5 by 11 copy of Senator Vitter's documents also be included 
in the record.
    Senator Boxer. Not only can he put it into the record, we 
will, if I could just say, we will put in any document. We will 
leave the record open until tomorrow at 10 a.m. Put in anything 
you want.
    Senator Wicker. I just wanted to make sure that it got in 
at the same time.
    Senator Boxer. Just put in anything that you want, Alice in 
Wonderland, anything you want.
    [The referenced information follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    [Laughter.]
    Senator Boxer. Senator Whitehouse.
    Senator Whitehouse. Well, let me ask my first question of 
Mr. Nutter. You, in your testimony on pages 5 and 6, show 
graphs that demonstrate substantial increases in natural 
catastrophes worldwide and in natural catastrophes in the 
U.S.A. The change in them, according to the graphs on pages 5 
and 6, are demonstrably different for the weather-related 
catastrophes than for earthquakes which seem to be relatively 
constant.
    We also have testimony in the coming panel from Republican 
witnesses who all are skeptical about the increase in storm 
activity. One, for instance, says it is the most indefensible 
claim regarding climate change, that severe weather has 
increased.
    Could you tell me how confident you are in your data, react 
to their concerns? And if you do not mind, also give us an 
estimate of how much money you have riding on getting this 
right in your industry.
    Mr. Nutter. Thank you, Senator, for the question.
    The data that was reflected in the chart that was held up 
comes from a data base that Munich Re monitors worldwide. There 
are 33,000 actual events reflected in that. These are real 
events. It reflects a clear trend in weather and climate-
related events. So, these are not, it is not research, it is 
not models, it is not studies. It is actual real events.
    And the reconciliation, in part, I think, comes from what 
the Congress has done to fund flood control measures. So, for 
example, the legend, the model or the suggestion that you do 
not have increases in floods over the last few years is a 
function in part of what the Army Corps does with levees and 
dams and water management kinds of things. So, it does not mean 
that there are not greater precipitation events, as Dr. Cullen 
refers to, or greater thunderstorms, it just means that we are 
managing them in a way that has reduced the number of such 
events.
    I also cited in my testimony a study published just in June 
by AECOM for FEMA and it suggested in forward-looking way that 
this trend of increased flood plains, as Senator Carper 
suggested, is pretty clear. Their estimate is that the flood 
plain areas are going to increase by 45 percent in this 
Country, the 100-year flood.
    So, the data does reflect the real world experience. It is 
not academic research. And, in fact, you would look at the kind 
of, the oscillation changes in hurricane patterns reflecting 
the fact that there is a natural variability in the climate 
that is probably reflected in some of the analysis by some of 
the other witnesses.
    But indeed you really need to look at this on a forward 
looking basis, not just a historic basis.
    Senator Whitehouse. And what kind of money do you have 
riding on getting this right in your industry?
    Mr. Nutter. Well, I can give you a number. The reinsurance 
industry has $312 billion of insurance coverage in place as we 
speak for natural catastrophe risk on a global basis. The 
number is the United States is probably $150 billion of that.
    Senator Whitehouse. Can you think of any incentive that 
anybody has in your industry to fake or gimmick this data?
    Mr. Nutter. Absolutely not. Our industry is a risk 
assessment, risk pricing industry. Our financial success is 
dependent on getting it right. And we are science-based. We are 
really dependent upon the scientific assessment that comes from 
people looking at this on a truly nonpartisan basis.
    Senator Whitehouse. Thank you.
    Senator Boxer. Thank you. We turn to Senator Sessions next.
    Senator Sessions. Thank you.
    I just noticed that NOAA's report on hurricanes, major 
hurricanes, for example, per decade show by far the highest 
number was 41 to 50, with 10 in the last 40 years. The average 
is 5 major hurricanes a year and the previous 40 years averaged 
8 major hurricanes a year. Do you dispute that, Mr. Nutter?
    Mr. Nutter. I would not dispute it if it is hard science. I 
certainly do not dispute that.
    Senator Sessions. Well, exactly right. You ask, people talk 
about we have had more storms and I do not think that is 
accurate.
    Senator Boxer. Can he answer? Could you let him answer, 
please?
    Senator Sessions. All right.
    Mr. Nutter. Senator Sessions, I think that everyone would 
say that in fact what you have is the CATO oscillations in 
hurricane activity where you have warm periods and less warm 
periods. So, in the mid-1900's, you clearly had more hurricane 
activity and then a period without that and now you have a 
greater hurricane.
    Senator Sessions. So, in the 1950's, we had clearly greater 
hurricane activity. I am glad you have indicated that. With 
regard to tornadoes, this is Dr. Cullen's written testimony, 
tornado data do not reveal any obvious trends in tornado 
occurrence or death that would suggest a clear link to global 
warming. That is your quote, is it not, Dr. Cullen?
    Ms. Cullen. Yes.
    Senator Sessions. Well, I just think when you change, when 
your temperature numbers do not hold up, like the models do, we 
go to things that start, every time there is a drought on the 
Weather Channel somebody complains about that. We are going to 
have testimony from a witness in the next panel that pretty 
much discounts all of those storm data and weather change data 
as being significantly impacted by the temperature.
    So, Senator Vitter asked you about the President's comment 
and quote. He has repeated it twice. On May 25th he said we 
also know that the climate warming, that the climate is warming 
faster than anybody anticipated five or 10 years ago. Do any of 
you support that statement?
    All right. The Economist recently stated ``The temperatures 
have not risen over the past 10 years.' The Economist also 
stated ``Over the past 15 years, air temperatures at the 
earth's surface have been flat.' The BBC reported ``Since 1998, 
there has been an unexplained standstill in the heating of the 
earth's atmosphere.'
    Now, this chart shows this and the reason, I do not suggest 
that there is no global warming and the numbers might not go 
back up next year. I do not know where the numbers are going. 
What I want to point out is the that the red line averages is 
the average of the models and what they predict and have been 
predicting for the last 15 years instead of surging upward like 
the red line says it has been basically flat as the Economist 
and the actual temperature data shows.
    So, any of you want to comment on that? I think it is an 
important question. Are the models that we are investing in 
correct or not?
    Senator Boxer. Dr. Cullen wanted to answer and then we are 
going to move on.
    Ms. Cullen. Thank you.
    Senator Sessions, it is an important point. And I just want 
to point out with respect to that prop that you show in the 
background, first of all, the warming has continued. The rate 
of increase has slowed and what you are showing with the red 
line is the average of 44 models. And I think it is really 
important to make the point that while we have seen this slow 
down in warming in the past 15 years, the warming increases, it 
is still increasing, and it is going into other parts of our 
climate system.
    And so, to make a statement about the climate models here, 
it is important to say that there are many climate models that 
still capture what we have witnessed over the past 15 years. It 
is the lower end of the warming, but it is not to say that the 
models have been incorrect. Those are two very different 
things. So, the warming has, indeed, continued.
    Senator Sessions. For the past 15 years the earth 
temperatures have been flat, they have not continued to 
increase.
    Ms. Cullen. Atmospheric temperatures have----
    Senator Boxer. I am sorry to cut you both off but we must 
move because we have a vote at 12:15.
    We are going to turn now to Senator Cardin.
    Senator Cardin. Thank you, Madam Chair, and let me thank 
all of the witnesses for participating in this hearing.
    I stepped out for a moment to take a phone call. It was 
from someone from Baltimore who informed me that the heat index 
today in Baltimore is 104 degrees for those who might be 
interested.
    I understand that there may be some who question of the 
negative impact of global warming, that there could be some 
positive effects from warmer climate, fewer blankets that we 
need in the wintertime. But let me just point out what is 
happening in the Chesapeake Bay because of warming is real.
    The loss of sea grasses by warmer water is affecting the 
ecology of the Chesapeake Bay. Rising sea level is creating a 
security problem for us as we are losing more and more of our 
shoreline. It is going to cause a problem for national 
security, the Naval Academy and other facilities that are 
located along the water. It is also affecting the safety and 
security of our Country.
    So, I know we can debate the impact of global climate 
change, but it is happening. The question is what impact are we 
having on that global climate change?
    Let me just ask Dr. Cullen, if I might, Senator Sessions 
talked about the number of hurricanes. I want to talk about the 
extreme weather conditions and whether we are seeing an 
increase in extreme conditions. We have had hurricanes that 
seemed to be of greater intensity that I ever can remember. We 
are having droughts. We are having floods.
    Can you just tell us what impact the rising temperature is 
having, average temperature is having, on extreme weather 
conditions, whether they are extremely cold, extremely wet or 
extremely dry?
    Ms. Cullen. Thank you, Senator Cardin. It is such an 
important point to just begin to explain how the warming makes 
its way into the kinds of extremes that we experience every 
day.
    So, you warm the planet about 1.5 degrees, which is what we 
have seen. We then can expect to see more heat extremes, which 
we have observed, more heavy downpours because there is now 
more moisture in the atmosphere being evaporated from the 
oceans so storms rain down heavier. So, more heat extremes we 
have observed, more heavy downpours we have observed.
    In the North Atlantic Basin, we have seen an increase in 
hurricane intensity. We are seeing an increase in flood 
magnitudes specifically in the Northeast and Midwest, and in 
the Southwest we have seen an increase in droughts and 
wildfires, an increasing trend.
    So, the average temperature's warming is indeed having in 
impact on extremes that we experience right now.
    Senator Cardin. Well, I think that is an extremely 
important point. People say, oh, 1 degree, what does that mean? 
But when you see the types of storms that we have seen and the 
damage that is has caused, you see the type of moisture and 
lack of moisture, globally.
    We are involved, I serve on the Senate Foreign Committee 
with Senator Boxer and others on this Committee, and we look at 
our development assistance and we look at parts of the world 
where people are fleeing because of the weather causing 
refugees because of, what we call weather refugees. They have 
to leave because it is not safe for them to be, their lands are 
being flooded, their lands are drought, etcetera.
    Is the global climate change having an impact globally on 
vulnerable communities from the point of view of 
sustainability?
    Ms. Cullen. We absolutely see that those populations that 
are most vulnerable, and that is true here in the United States 
as well, are being disproportionately impacted by this warming. 
So, we need to think about it as a global problem. And there 
was recent report that came out by the National Academy that 
showed that we have to prepare for more climate surprises. 
Climate change, ultimately, it increases our odds of being 
unlucky. So, we can begin to see these extreme events happen at 
the same time all over the world which leads us back to Mr. 
Nutter's point about the incredible costs of these events.
    Senator Cardin. Thank you.
    Senator Boxer. Thank you so much.
    So, here is where we are. If it is OK with the panel, these 
will be our last three speakers no matter who walks in the door 
because we need to move on to the oceans panel. So, if it is OK 
with everyone, we will go to Senator Fischer, then we will go 
to Senator Hirono, Senator Wicker, Senator Sanders, and then we 
will go to the next panel.
    Is that OK with everyone? OK. So, we will now turn to 
Senator Fischer.
    Senator Fischer. Thank you, Madam Chair.
    Dr. Murphy, in your testimony you discussed the domestic 
versus the global social cost of carbon and you note that the 
working group neglected clear OMB guidance to report costs and 
benefits from a domestic perspective. This is significant. It 
is not a wonderland moment. Because Americans are suffering the 
full costs of complying with new regulations in the name of 
reducing carbon emissions while only receiving a small portion 
of the supposed benefits.
    Do you believe this issue is being manipulated so that 
regulations will appear to pass the cost benefit test when they 
do not actually confer benefits on Americans?
    Mr. Murphy. Well, what I can say is that the working group 
itself acknowledged in its report saying OMB's guidance says 
you should report it from a domestic perspective, that is 
mandatory, and if you want, report your cause benefit from a 
global, and then they went on to say but we are not going to do 
that.
    So, to answer your question, my guess would be yes, that if 
they did report because they themselves say only multiplied by 
7 to 23 percent if it were to be a domestic calculation. So, 
what that means is that they justify a regulation and it passes 
the global cost benefit. In effect, Americans would be 
suffering the full compliance costs whereas they would only be 
capturing 7 to 23 percent of even the alleged benefits.
    Could I just very briefly talk about the, very quickly, 
some were suggesting that perhaps these ideas of benefits from 
warming are outlying estimates and so forth. Everything I said 
in my testimony is coming just from me explaining what the 
working group itself says in its reports. The model is showing 
benefits up through about 2.7 degree Celsius of warming. That 
was the fund model chosen by the working group. So, that is not 
me speculating. I am just reporting what their own figures 
show.
    Senator Fischer. Thank you, Doctor. And Dr. Furchtgott-
Roth, when you talked about the green jobs and creating green 
jobs, what way does that end up costing Americans? You talked 
about, I took it as manipulating numbers. And yet, what are the 
benefits from that?
    Ms. Furchtgott-Roth. Right. So, the important thing is that 
is used as a justification for increases in employment that 
would occur from using, for example, more solar power, more 
wind power, whereas really, the higher costs of these energies 
reduces employment in the United States.
    And in my testimony I mentioned a CBO study called How 
Policies to Reduce Greenhouse Gas Emissions Could Affect 
Employment and CBO said while the economy was adjusting to the 
emissions reduction program, a number of people would lose 
their jobs and some of these people would face prolonged 
hardship. And the CBO says in cases where a shrinking industry 
was the primary employer in a community, the entire community 
would suffer.
    So, there are clear negative employment effects from 
raising a factor for the cost of the factor of reduction. And 
since the United States in only responsible for 17 percent of 
global greenhouse gas emissions, and greenhouse gas emissions 
are shrinking in the United States but they are rising 
elsewhere, we would put these measures in place, we would not 
impact global climate change.
    To impact global climate change, we need to get China and 
India to change their emissions which we could do perhaps by 
persuading them to use different technology, nuclear plants, 
natural gas powered, electricity generating plants. That would 
be a far more effective use of funds and it might have an 
effect in reducing global greenhouse gas emissions.
    Senator Fischer. Thank you very much. And I did appreciate 
the examples that you gave where we may take a different 
direction that would have an impact. Thank you.
    Ms. Furchtgott-Roth. Thank you.
    Senator Boxer. Thank you so much. We will go to Senators 
Hirono, Wicker and Sanders. Senator Hirono.
    Senator Hirono. Thank you. Well, regardless of the cause 
and effect of these extreme weather changes and changes to our 
ecosystem based on temperature changes, it is happening. We 
know this. But we obviously have a very strong difference of 
opinion as to what we ought to do to prevent, mitigate, adapt 
to these changes.
    So, one thing that struck me was Mr. Nutter's testimony 
because, Mr. Nutter, you represent an industry that is highly, 
highly sensitive to any events that occur that will cause the 
insurance companies to have to pay out claims based on events. 
And you clearly say that there is a trend, that there will be 
more of these kinds of natural disasters and that the severity 
will be extreme. That is a fact. Your industry operates on that 
basis.
    You charge your, you set your premiums based on that kind 
of information. This is hard-nosed decisions that your industry 
has made. So, knowing all of this, have you not already raised, 
in terms of both the property side, have insurance companies 
not already set their rates higher, especially for people who 
live in coastal areas? Is it not harder to get reinsurance for 
these areas? That is one.
    And then you list a number of suggestions in the last part 
of your testimony some, I do not know, 20 suggestions of 
Federal action. Could you talk a little bit about what you 
consider maybe your top two or three suggestions that you would 
ask us to pass?
    Mr. Nutter. Certainly. Thank you, Senator. There is no 
question that the financial success of this industry is 
dependent upon its appropriate risk pricing and risk assessment 
process. And, therefore, the industry looks at the scientific 
elements of sea level rise, greater precipitation events, those 
kinds of things.
    There is no question that in a number of particularly 
coastal areas that insurance markets have been distressed. 
Consumers are facing higher premiums as a result of all of that 
and that is that balance between providing a financial product 
that is affordable for consumers. So, it is a difficult 
challenge which is why, in many ways, I focused as you suggest 
on the kinds of adaptation measures that perhaps would reduce 
the potential losses of property and life in these areas, a way 
to also mitigate the costs associated with all of that.
    If I were to highlight some of these, I did mention tax 
credits to individuals that take action to protect their 
property and their lives as a way to provide incentives for 
people to do the right thing. I also think that Congress has an 
opportunity to provide incentives for communities to be more 
resilient, to prepare better and to respond better.
    So, whether it is funding incentives or whether it is 
conditions associated with disaster assistance when that is 
paid into these communities, to make certain that in any 
rebuilding or reconstruction or preparation that indeed the 
communities are provided with assistance that are going to 
improve mitigation, setbacks, better building codes, the kinds 
of things that will reduce damage from these increasing events.
    Senator Hirono. Do you think that the counties that do the 
zoning and development decisions, that they are taking into 
consideration that they should very much limit, perhaps, 
development in the coastal areas?
    Mr. Nutter. My inclination is to think that after events 
that communities do that. Before events, they do not do enough 
of that. Communities obviously are driven by tax revenue from 
development and real eState development and therefore there is 
that incentive. It creates a moral hazard and the moral hazard 
is that the risk is being created at the local level but it is 
really being passed on at the national level in disaster 
assistance.
    Senator Hirono. Very much so, and the State level also 
because we experienced Hurricane Iniki in Hawaii in 1982, huge 
losses and the homeowners' insurance companies just pulled up 
stakes and said aloha to all of the homeowners. And the State, 
the State had to step forward and create an insurance fund.
    So, this is happening more and more and more and I think 
that we all need to recognize the realities as your industry 
has done. Thank you.
    Senator Boxer. Thank you. Senator Wicker.
    Senator Wicker. Thank you, Madam Chair.
    Let me point out in response to what Mr. Nutter said, in 
the second panel Dr. Pielke will reference a peer-reviewed 
study which he says is extensive and robust. The Neumayer and 
Barthel study of 2011 conducted at the London School of 
Economics and supported financially by Munich Reinsurance 
conclude ``Based on historical data, there is no evidence so 
far that climate change has increased the normalized economic 
loss from natural disasters.' That will be in the second panel 
and for people who will be tuning out, I just wanted to point 
that out.
    Mr. Golden, you talk about climate pollution. You and other 
people who have spoken in the room today have talked about 
carbon dumping. Now, when we talk about that, we are talking 
about carbon dioxide being emitted into the atmosphere. Is that 
correct?
    Mr. Golden. Among other greenhouse gases, yes.
    Senator Wicker. Among other greenhouse gases. And Ms. Diana 
Furchtgott-Roth, you mentioned that you are actually breathing 
out carbon dioxide as we speak.
    Ms. Furchtgott-Roth. Right. And trees emit it also, plants 
and trees emit it.
    Senator Wicker. That is right. And we are glad of that, are 
we not?
    Ms. Furchtgott-Roth. We are.
    Senator Wicker. So, it would just seem, let me observe that 
it seems to me that when we talk about carbon dumping or 
climate pollution as a way to make carbon dioxide sound a 
little more sinister, I just think it is important to explain 
what we are talking about when we say greenhouse gases.
    Now is it true, Dr. Cullen, that carbon dioxide emissions 
from most developed countries including the United States have 
actually dropped in the past decade?
    Ms. Cullen. As a result of the recession here in the U.S., 
among other things we saw a small tick down in the amount of 
CO2 being.
    Senator Wicker. OK, so that is true. You have said it is 
because of the recession. I have only got 4 minutes. So, that 
is actually true.
    I would also point out that EPA announced earlier this year 
that greenhouse gas emissions have been declining since 2007 
including a decrease by 1.6 percent between 2010 and 2011, and 
again we are talking about the very dioxide that I am breathing 
out at this point.
    Now, Ms. Diane Furchtgott-Roth, Mr. Golden talked about an 
ounce of prevention. And what I want to ask you in my remaining 
time, is what we are talking about with the Obama 
administration really just an ounce of prevention? As I 
understand, what you are saying, these actions will be harmful 
to the economy, they will raise our energy prices, they will 
hurt our economy in a way that hits particularly hard at the 
people at the bottom of the economic spectrum. Is that correct?
    Ms. Furchtgott-Roth. Yes, yes, that is correct. And by the 
way, I meant to say plants absorb carbon rather than emit it. 
We emit it, they absorb it. So, I misspoke.
    Senator Wicker. And actually plants love it, do they not? 
They do better with more carbon dioxide.
    Ms. Furchtgott-Roth. Exactly, yes.
    But what President Obama is talking about is very wide-
ranging regulation on our industries. That is going to effect 
the lowest fifth of the population greatest.
    Senator Boxer. Thank you. Senator Sanders.
    Senator Sanders. Thank you, Madam Chair. I note that I find 
it interesting that in this discussion of global warming the 
two Republican representatives admittedly tell us that they are 
not climatologists, they are economists. And that is fine. But 
I do find that interesting as we debate how we go forward in 
addressing the planetary crisis of global warming that neither 
of the Republican representatives here are talking about global 
warming.
    A second point, and this is not disparaging to either one 
of these fine panelists here, I am concerned, as you said, 
Madam Chair, that the Koch Brothers, ExxonMobil and others are 
pouring well over $100 million into organizations, including 
both of their organizations, trying to do what the tobacco 
industry did many, many years ago at such tremendous cost. How 
many people died because we had doctors coming to Congress 
raising their hands swearing that tobacco had no impact on 
cancer, et cetera.
    Ms. Furchtgott-Roth. I have no idea where my organization 
gets its funds. But I have been writing these materials way 
before I joined----
    Senator Sanders. OK. I was not disparaging you but I am 
telling it is a fact.
    Senator Boxer. I will put that in the record, where we got 
that.
    Senator Sanders. All right. We will document where the 
Manhattan Institute gets its money from.
    [The referenced information follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        
    Senator Sanders. Now, in terms of temperature, Senator 
Sessions, among others, was raising this issue about 
temperature. Let me ask, Dr. Cullen, my understanding is that 
according to NASA, the nine warmest years on record have all 
occurred since 1998. Is that correct?
    Ms. Cullen. That is correct.
    Senator Sanders. Is it also correct that currently the 
warmest year on record is 2010? Including 2012, all 12 years to 
date in the 21st Century, that is 2001 through 2012, rank among 
the 14 warmest in the 133 year period of record. Is that true?
    Ms. Cullen. That is true. And I should say that we also set 
a global CO2 emissions record in 2012 of 35.6 billion tons. So 
globally we are setting records for carbon dioxide emissions.
    Senator Sanders. OK, what I want to do is go to Mr. Nutter 
and Mr. Golden and ask them this. There has been a lot of 
discussion, including from our economist friends here and my 
Republican friends, Senator Wicker and others, about the costs, 
the costs of addressing global warming. And no one denies that 
it is, of course, expensive. To save the planet will be 
expensive.
    But I want to talk about the cost of inaction, inaction, if 
we do nothing. I am reading from an article appearing in a 
publication called The Examiner, I think in 2011, this is what 
they say. I think it is a Louisiana publication. Does a 
publication in New Orleans, The Examiner, ring a bell?
    Mr. Nutter. No, it does not.
    Senator Sanders. OK. All right. This is what it says. It 
says rising seas are expected to wipe out a significant portion 
of Louisiana's wetlands and the Mississippi River Delta Plain. 
Our wetland loss is already among the highest in the world. The 
city of New Orleans has historically depended on these wetlands 
for protection. Loss of Louisiana's coastal wetlands will also 
hurt economic sectors such as fishing, timber, agriculture, 
tourism and recreation along with devastating the Port of New 
Orleans.
    Now, it is not just clearly New Orleans. What do rising sea 
levels mean economically to Louisiana, to New York, to Florida, 
to major great American cities in low coastal areas? Who wants 
to answer that? Mr. Nutter?
    Mr. Nutter. I would certainly offer a comment that 
Superstorm Sandy is a good example of the impact of rising seas 
because storm surge was, in fact, probably the major cause of 
the damages associated with all of that. And certainly that is 
the kind of pattern one would see going forward in areas of, 
low lying areas, whether it is the State of Florida or the Gulf 
Coast, particularly without the natural habitat that has 
historically been an inhibitor----
    Senator Sanders. Everything being equal, is it possible we 
will see billions of dollars of damage?
    Senator Boxer. Sorry to cut you off. I really am. I have to 
do that. I have to be fair.
    So, we want to thank this panel. You have been, every one 
of you, terrific. And we are going to leave the record open 
until 10 a.m. because people may have more questions. I am 
going to send one to the two economists on the panel, the 
Republican witnesses, about the tremendous job growth we have 
seen in California related to our alternative energy. So, I 
want to see you talk about why you think it is, in fact, a 
growth industry or not.
    We thank you. As you, you should know how appreciative we 
are, all of you.
    We are going to ask the new panel to come up. I am going to 
hand the gavel over to a real leader on the oceans issues and 
someone who really asked us to do a panel on oceans, Senator 
Whitehouse. And he is going to start right now.
    Senator Whitehouse.
    [Presiding.] Thank you, Chairman. Let me ask the next panel 
to come forward. What is our vote schedule at this point?
    Senator Boxer. The vote begins at 12:15 but we do not have 
to leave here until 12:30.
    Senator Whitehouse. And then just the one?
    Senator Boxer. Just the one.
    Senator Whitehouse. All right. Let me thank the various 
witnesses who are here, with a particular welcome to Dean 
Leinen who, before she went to Florida Atlantic University, was 
the Dean of the Graduate School of Oceanography at the 
University of Rhode Island. Welcome here.
    Let me just say a moment about where we are from a 
parliamentary point of view. There is a vote that will begin on 
the Senate floor at 12:15. So, there may be a certain amount of 
swirling about as we allow everybody to go and take that vote. 
I may choose, depending on who is here, to recess the Committee 
briefly so that we can get that vote done and then return. But, 
in the meantime, why don't we proceed with the testimony of Dr. 
Francis. We welcome you here.

STATEMENT OF JENNIFER FRANCIS, RESEARCH PROFESSOR, INSTITUTE OF 
        MARINE AND COASTAL SCIENCES, RUTGERS UNIVERSITY

    Ms. Francis. Thank you very much and good afternoon. Thank 
you for inviting me to participate in this hearing here today.
    I am an atmospheric scientist and over my about 25 year 
career my research has focused primarily on the changing Arctic 
system and how it connects with the global system. And as a 
scientist and a mother of two teenagers, I would like to tell 
you about the top five things that keep me awake at night.
    The first, and we have heard some of this already today, 
is, in the past year we, as a global humanity, have broken two 
momentous records. First, we have, by burning fossil fuels at a 
very fast rate, we have emitted the most carbon dioxide into 
the atmosphere we have ever seen before. This has led to our 
carbon dioxide levels in the atmosphere being the highest they 
have been in at least 800,000 years, probably more like 2.5 
million years. And we know that the last time carbon dioxide 
levels were this high in the atmosphere, global temperatures 
were several degrees warmer and sea levels were tens of feet 
higher.
    So, why has this started to happen already? Well, we know 
why. It is because it takes a long time for that heat to be 
conveyed into the ocean. The ocean has a very high heat 
capacity. It takes a long time to warm it up. The ocean is the 
flywheel in the climate system.
    And we have added this carbon dioxide so fast that it just 
has not had time to catch up yet. But it is starting to. 
According to a new U.N. report that was released last month, 
this past decade of the 2000's was the warmest on record, not 
only in the record of digital temperatures or thermometers, but 
also going back probably 2,000 years of proxy records.
    We have heard many times already this morning that the air 
temperature, the surface air temperature, has slowed down in 
its increase over the last 15 years. But we know why. Here is 
the real data and the real facts. There are natural 
fluctuations in the oceans circulation that modulate this 
increase in temperature over time. Things like El Nino, for 
example, we know, tends to increase the global average 
temperature whereas La Nina has the opposite effect.
    Over the last 15 years, we have a great number of La Ninas. 
This has tended to cause the surface temperatures globally 
averaged to decrease somewhat. But we know this is going to 
rebound because there will be El Ninos again and we will see 
that heat that Dr. Cullen talked about returning to the 
atmosphere from the ocean. The heat is there and the warming 
has not slowed down.
    The second thing is that all this extra heat that was 
trapped is causing all of the forms of permanent ice in the 
Arctic to disintegrate. For example, let me just talk about sea 
ice. The other things would be permafrost and ice sheets and so 
forth. The sea ice, as of last summer, was three-quarters gone. 
Three-quarters of it is gone in just 30 years and the only 
explanation is the increase in greenhouse gases in the 
atmosphere.
    The third thing is that the pace of sea level rise is 
accelerating. We know this is due to the warming oceans and 
when the oceans warm they expand. We also know that it is 
because of these disintegrating permanent forms in the Arctic 
adding mass to the oceans.
    As the oceans warm, they also allow more evaporation into 
the atmosphere, about 7 percent over the last 30 years. This 
provides more fuel for storms because when it condenses it 
releases heat and also for the heavier precipitation events 
that have been observed over the Northeast.
    The fourth thing is that the Arctic has warmed two to three 
times faster than the rest of the Northern Hemisphere. This is 
due to sea ice loss and also this water vapor increase. That 
temperature difference between the Arctic and areas farther 
south drives what we call the Jet Stream. This is the high 
level river of air over our heads that creates weather, steers 
weather and, as the Arctic warms faster, it is decreasing this 
temperature difference and it is causing the West-East winds of 
the Jet Stream to slow down. This has been measured.
    As that Jet Stream slows down, it takes on a wavier path as 
it travels around the Northern Hemisphere. We can measure this 
as well. Those waves cause the weather than we experience here 
on the surface. And if those waves get bigger, which we see 
that they are, they tend to move more slowly from West to East, 
along with the weather than they create. So, this is increasing 
the likelihood of extremes that are caused by slow-moving 
weather patterns.
    And finally, No. 5 is what I call climate misleaders. These 
are people who are deliberately ignoring and misconstruing the 
science in an attempt to convince you all and the public that 
even human-caused climate change is not happening or that there 
is nothing to worry about.
    And my time is almost up. But what I want to say is that we 
know they rely on models and they are picking specific 
variables from models and illustrating that they are not 
working right. We know that the models are not perfect. And we 
know also that they are mostly right. The sign that they are 
telling us is correct and we can depend on that being crystal 
clear.
    And I would agree that we have no more time to wait. We 
have to start to act.
    Thank you.
    [The prepared statement of Ms. Francis follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Whitehouse. Thank you very much, Dr. Francis.
    Dr. Doney, welcome. You are from a neighboring State and a 
competing ocean science facility, but we are delighted to have 
Woods Hole represented here. Proceed.

  STATEMENT OF SCOTT C. DONEY, PH.D, WOODS HOLE OCEANOGRAPHIC 
                          INSTITUTION

    Mr. Doney. Thank you Senator Whitehouse, Ranking Member 
Vitter and other members of the Committee.
    My name is Scott Doney. I am a Senior Scientist at the 
Woods Hole Oceanographic Institution. Thank you for giving me 
the opportunity to speak with you today on climate change, the 
ocean-carbon cycle and ocean acidification.
    Over the past two centuries, human activities have resulted 
in a traumatic and well-documented increase in atmospheric 
carbon dioxide to more than 40 percent above pre-industrial 
levels. Atmospheric levels would be even higher today if it 
were not for the ocean which provides a critical service by 
removing from the air roughly one-quarter of the carbon 
emissions from fossil fuel burning and deforestation.
    The extra carbon dioxide in the ocean causes well-
understood changes in sea water chemistry in a process termed 
ocean acidification. Today's surface ocean is almost 30 percent 
more acidic than it was in pre-industrial times. Over the next 
few decades, the level of acidity of the surface ocean will 
continue to rise without deliberate action to reduce carbon 
dioxide emissions and stabilize atmospheric carbon dioxide 
levels.
    Increasingly, ocean acidification will cause major problems 
for many marine organisms like shellfish and corals that build 
shells and skeletons from calcium carbonate. Other marine life 
will be impacted indirectly by losses in their food supply and 
habitat. Together with climate change, acidification will put 
further pressure on critical living marine resources such as 
fisheries and coral reefs that we depend upon for food, tourism 
and other economic, cultural and aesthetic benefits.
    Scientific observations show that ocean acidification is 
already occurring around the globe and is amplified in some 
coastal regions by changing ocean circulation, pollution and 
land management practices. Many coastal waters are experiencing 
a combination of stresses, acidic conditions, low oxygen and 
excess nutrients.
    Recent near-collapses of the oyster fishery in the Pacific 
Northwest, directly attributed to changing sea water chemistry, 
had substantial negative impacts on local jobs and local 
economies. In Washington State, shellfish farming has an 
estimated total annual economic impact of $270 million. And 
shellfish growers directly and indirectly employ more than 
3,200 people. Across the Nation, shellfish account for about 20 
percent of the value of domestic fishery landings. Recreational 
shell fishing is also important to many coastal communities.
    Ocean warming and acidification could also threaten the 
estimated $385 million that Hawaiian coral reefs provide 
annually in goods and services as well as put at risk subsisted 
fisheries in the Pacific Island communities. Over the past 
decade, Northwestern Hawaiian Islands experienced several mass 
coral bleaching events, the result of higher sea surface 
temperatures. Acidification may make corals more susceptible to 
this thermal bleaching.
    Acidification is independent of climate warming but the two 
are connected through the underlying cause of elevated 
atmospheric carbon dioxide. Ocean warming is causing 
substantial changes in marine ecosystems. For example, 
commercial fish stocks are already moving and diseases that 
attack corals, abalones, oysters, fish and marine mammals are 
becoming more intense and happening in more places.
    We have an opportunity now to limit the negative impact of 
ocean acidification in the future. Key elements include curbing 
human carbon dioxide emissions to the atmosphere, improving 
control of local pollution sources, reducing coastal habitat 
destruction and better preparing coastal human communities to 
withstand the amount of ocean acidification and climate change 
that is unavoidable because of past human emissions. Adaptation 
administration and mitigation strategies are being developed 
for ocean acidification at the State and local level already.
    Thank you for giving me this opportunity to address the 
Committee and I look forward to answering your questions.
    [The prepared statement of Mr. Doney follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Senator Whitehouse. Thank you, Dr. Doney, and Dean Leinen, 
welcome. Please proceed with your testimony.
    I think given the timing, we will take a recess at the 
conclusion of your testimony then return once the voting is 
complete. It takes us five or 6 minutes for us to get over 
there, vote, and get back.
    Dean Leinen.

   STATEMENT OF MARGARET LEINEN, PH.D, EXECUTIVE DIRECTOR OF 
HARBOR BRANCH OCEANOGRAPHIC INSTITUTE, VICE PROVOST FOR MARINE 
   AND ENVIRONMENTAL INITIATIVES, FLORIDA ATLANTIC UNIVERSITY

    Ms. Leinen. Chairwoman Boxer, Senator Whitehouse, a great 
advocate of the oceans, and distinguished members of the 
Committee, thank you for the opportunity to speak today.
    My name is Margaret Leinen and I am the Executive Director 
of Harbor Branch Oceanographic Institute. I would like to focus 
on the ecosystems that are affected by climate change.
    The East Coast, from North Carolina to Maine, accounts for 
30 percent of the $5.3 billion U.S. Fisheries landings. There 
is a typo in your written testimony that says $5.3 trillion. 
Fisheries are important, but not quite that important.
    [Laughter.]
    Ms. Leinen. A 2009 study of 40 years of fishing research 
vessel survey data, including some of our most important 
commercial species, Atlantic cod, haddock, winter and 
yellowtail flounder, Atlantic herring, showed that about half 
of the 36 species included have shifted northward over the last 
four decades as ocean temperatures in the region increased 
during the same 40 years.
    Half of the stocks moved north, some expanded their range, 
some moved deeper, but the temperature at which each stock was 
centered did not change with time, suggesting that the fish are 
moving to remain within their preferred temperature range. Some 
of the stocks nearly disappeared from U.S. waters as they moved 
further offshore.
    Studies completed last year show that this northward shift 
has continued. This means that fishers who adapt their vessels 
and their techniques for one species or group of species may 
have to travel further to catch those fish, expending more 
fuel. And when stocks move out of U.S. waters, our fishers must 
compete with other countries for fish they used to have 
exclusive access to. Remember that this area from North 
Carolina to Maine is a $1.7 billion a year landings industry.
    Coral reefs comprise some of the most beautiful and diverse 
ecosystems on earth. They also spur nearly $17 billion in 
tourism spending and $250 million a year in commercial fishing. 
They also provide coastal protection from strong ocean 
currents, waves and hurricanes.
    Small algae live inside corals and provide food and energy 
for the corals through photosynthesis. When these microbes are 
stressed by heat, they often die and are expelled, leaving 
corals to starve. For the last 30 years, detailed surveys of 
this process, called coral bleaching, have been accompanied by 
surface and satellite temperature data. Using these data, 
researchers track the conditions that lead to coral bleaching. 
In Florida and U.S. Caribbean reefs, those closest to my home, 
heat stress has nearly doubled during the last decade, 
accompanied by severe coral bleaching events.
    Sea surface temperature increases of 2 degrees Fahrenheit 
per decade have been accompanied by losses of viable coral reef 
between 5.5 percent and 9.2 percent per year. Western Atlantic 
reefs have the highest percentage affected by bleaching of any 
reefs worldwide.
    Humans are part of the ecosystem as well. Florida is very 
flat and low. Our 9 million population is heavily concentrated 
along our coasts. Miami, the seventh largest city in the 
Country, the Florida Keys, coastal and inland portions of 
Broward County, the Florida Everglades and Fort Lauderdale are 
all less than two feet in elevation.
    In the last 50 years, Florida has seen between five and 
eight inches of sea level rise. Our civic infrastructure, 
roads, storm sewers, water supplies, power grids, is already 
seeing the impact of sea level rise. Drainage systems are not 
working in many areas during lunar high tides and during 
storms. The streets of Miami Beach are now routinely flooded 
during peak high tide.
    During storm surges, sea water moves into storm sewer 
systems and pushes water inland, actually causing sea water 
fountains up to a mile inland. Future sea level rise of only 
six more inches, forecast as early as 2030, would cripple half 
of the areas flood control infrastructure. It is a major 
economic impact.
    But the sea level rise problem in Florida is not restricted 
to inundation. As the sea level rises, it intrudes into our 
very porous limestone and pushes fresh water up and out. Right 
now, many wells for South Florida communities are close to the 
current boundary of salt water intrusion and cities are already 
spending millions to upgrade their storm water systems and to 
moving their drinking wells westward. This will only be a 
temporary solution as sea levels rise.
    Members of the Committee, these impacts are already 
affecting our economy substantially and will continue to do so.
    [The prepared statement of Ms. Leinen follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Thank you very much, Dean Leinen.
    The Committee will stand in recess for five, 7 minutes 
subject to the call of the Chair, shall we say, while we go and 
do our vote. And then we will reconvene.
    [Recess.]
    Senator Whitehouse.
    [Presiding] The hearing will return to order.
    We now have Dr. Roger Pielke. I have pronounced it 
correctly, I see, by your head nodding.
    Mr. Pielke. You got it. That is correct.
    Senator Whitehouse. And then, after that, Dr. Spencer.
    Please proceed, Dr. Pielke.

 STATEMENT OF ROGER PIELKE, JR., PROFESSOR, CENTER FOR SCIENCE 
     AND TECHNOLOGY POLICY RESEARCH, UNIVERSITY OF COLORADO

    Mr. Pielke. Thank you to the Senators and to the Committee 
for having me give this testimony today.
    I started working on extreme weather and climate in 1993 at 
the National Center for Atmospheric Research when I started a 
post-doc position. I am currently Professor of Environmental 
Studies at the University of Colorado.
    Now, I am going to give you seven what I call take home 
points. And it is important to emphasize that each of these 
points are consistent with what has been reported by the 
Intergovernmental Panel on Climate Change, the U.S. Global 
Change Research Program and the broader peer-reviewed 
literature. In fact, I find is fascinating that I am the ninth 
witness out of 10 and I am the first one to invoke the 
Intergovernmental Panel on Climate Change at a hearing on 
climate change.
    Here are my seven points.
    First, it is misleading and just plain incorrect to claim 
that disasters associated with hurricanes, tornadoes, floods or 
drought have increased on climate time scales either in the 
United States or globally. It is further incorrect to associate 
the increase in costs of disasters with the emission of 
greenhouse gases.
    Second point. Globally, weather-related losses have not 
increased since 1990 as a proportion of GDP. They have actually 
decreased by about 25 percent. And insured catastrophe losses 
have not increased as a proportion of GDP since 1960.
    Hurricanes, point three, hurricanes have not increased in 
the U.S. in frequency, intensity or normalized damage since at 
least 1900. The same holds for tropical cyclones globally since 
at least 1970 when we have good data.
    Fourth, floods have not increased in the U.S. in frequency 
or intensity since at least 1950 and, remarkably, flood losses 
as a percentage of U.S. GDP have dropped by 75 percent since 
1940.
    Fifth, tornadoes have not increased in frequency, intensity 
or normalized damage since at least 1950 and there is some 
evidence to suggest they have actually declined.
    Sixth, drought has, and here I quote the IPCC, for the most 
part become shorter, less frequent and covered a smaller 
portion of the U.S. over the last century. Globally, and I 
quote from a recent paper in Nature, there has been little 
change in drought over the past 60 years.
    Seventh, now this, these trends being the case, it is 
nonetheless a fact that the absolute costs of disasters will 
increase significantly in coming years no matter what you think 
about climate change or the human role in it simply due to 
greater wealth and populations exposed in locations that are 
prone to extremes. So, disasters will continue to be an 
important focus of policy irrespective of how climate change 
evolves.
    Now, let me say I have a few statements in addition to 
these kind of factual scientific ones and, as we have seen this 
morning, because the issue is so deeply politicized, there are 
a few points to make so that my testimony is not misconstrued.
    First, humans do influence the climate system in profound 
ways including through the emission of carbon dioxide from the 
combustion of fossil fuels. And I would point you to the first 
working group report from the IPCC, Intergovernmental Panel on 
Climate Change, for discussion of that.
    It is true that researchers have detected and in some cases 
attributed a human influence in measures of climate extremes 
that go beyond those few that I just mentioned, specifically 
surface temperatures and precipitation trends.
    The inability to detect and attribute changes in 
hurricanes, floods, tornadoes and drought does not mean that 
human-caused climate change is not real or of concern. It does 
mean, however, that some activists, politicians, journalists, 
corporate and government agency representatives and even 
scientists who should know better have made claims that are 
just unsupportable based on evidence in research.
    It is my view that such false claims undermine the 
credibility of arguments for action on climate change and, to 
the extent that these false claims confuse those who are making 
decisions related to extreme events, they could, in fact, lead 
to poor decisionmaking.
    Now, a considerable body of research projects that in the 
future various extremes may, in fact, become more frequent or 
intense as a direct consequence of the human emissions of 
carbon dioxide and other greenhouse gases. There are 
exceptions. The IPCC suggests that winter storms may become 
less likely.
    Our research, and that of others, suggests that assuming 
that these projections are correct, just taking them as true 
projections of the future, it would be many decades, perhaps 
longer, before the signal of human-caused climate change can be 
detected in the statistics of hurricanes. Now, to the extent 
that the statistical properties of other phenomena like floods, 
tornadoes and droughts are the same, that conclusion will hold.
    Let me conclude by emphasizing that what I have reported to 
you today is consistent with what has been reported by the 
Intergovernmental Panel on Climate Change. And in my written 
testimony, I have included direct quotes from that. This is 
mainstream science. It should not be controversial. It is 
supported by peer-reviewed research and I hope that it is of 
some use.
    Thank you very much.
    [The prepared statement of Mr. Pielke follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Whitehouse. Thank you, Dr. Pielke.
    And finally, we will turn to Dr. Spencer. I will say, Dr. 
Spencer, that I know that Senator Sessions very much wanted to 
be here and introduce you, U.S. Senator from your home State, 
and because of the vote and scheduling mishaps, I think it 
looks like he would not be able to do that.
    But I think he would want me to let you know that he was 
very eager to do that, had asked my permission to do that and 
was ready, willing and able to do that. So, you will have to go 
forward without his introduction but I am sure he wishes you 
his best.

STATEMENT OF ROY W. SPENCER, PH.D, PRINCIPAL RESEARCH SCIENTIST 
 IV, EARTH SYSTEM SCIENCE CENTER, THE UNIVERSITY OF ALABAMA IN 
                           HUNTSVILLE

    Mr. Spencer. Thank you, Senator, and thank you for the 
invitation, to you and the Committee and to Chairman Boxer.
    First of all, given everything that has been said today, 
and following on Dr. Pielke's excellent testimony right now, I 
want to put everything we have been talking about into a little 
broader climate context. And this is a chart that will be 
submitted as part of the record tomorrow and at least a few 
members of the Committee will be able to see it.
    The point here, which I will reState orally, is that yes, 
we are unusually warm right now, just like we were 1,000 years 
ago during the Medieval Warm Period and 2,000 years ago during 
the Roman Warm Period. Now, those previous warm periods could 
not have been our fault. The point is, climate varies 
naturally.
    I know the title of today's hearing something like climate 
change it is happening today or something like that. Well, yes, 
and it has always changed. The question is, so what? How much 
of that change is due to humans? That is a question which I 
believe I am the only witness today who has actually actively 
researched and published on.
    For instance, we have a new paper that has just been 
accepted for publication which looks at not only the warming we 
have seen in the atmosphere over the last let us say 50 years 
but also the warming we have seen in the oceans. Dr. Cullen 
mentioned the importance of not just focusing on the atmosphere 
but also looking at the warming in the oceans. And she is very 
correct. And we have done so.
    And when we take into account how much the deep oceans have 
warmed since the 1950's, and take into account the effect of El 
Ninos and La Ninas and increasing carbon dioxide and all of the 
other forcing mechanisms that the IPCC uses in their climate 
model runs, we find that the climate system is relatively 
insensitive, consistent with the big graphic that was shown 
earlier where it showed that we are not warming nearly as fast 
as the IPCC climate model suggests we should have been warming.
    So, the point is a lot of evidence now is being amassed 
which suggests that the climate system is simply not as 
sensitive to our addition of carbon dioxide to the atmosphere 
as most scientists think it is.
    I also want to say since we are talking about most 
scientists, I have heard 97 percent, 98 percent, there is a 
recent paper by John Cook and co-authors who looked at 
thousands of research papers which have been published in a 
scientific literature to see what fraction support the 
scientific consensus on global warming.
    Well, it turns out that the 97 percent consensus that they 
found I am indeed a part of. And Senator Sessions mentioned 
that he would agree with it to. And my associate, John Christy, 
he agrees with it. In fact, all skeptics that I know of that 
work in this business, all are part of that 97 percent because 
the 97 percent includes people who think humans have some 
influence on climate.
    Well, that is a fairly innocuous statement and that is 
something that continually annoys me as those of us that are 
called deniers, it is never actually, I think the d word was 
actually used by the Chairman today, it has never actually been 
pointed out. What is that we deny?
    Also, this 97 percent, what does the 97 percent consensus 
mean? What do all of those people agree to? Well, they agree to 
something fairly innocuous and it is something that most of 
agree to, that humans must have some influence on climate. The 
question is, how much? And how much influence makes all of the 
difference in the world if you are going to be basing policy 
decisions, carbon taxes, regulations, legislation, whatever on 
them, it makes all the difference in the world exactly how much 
warming we can expect due to human activities.
    I am going to leave it at that, I think, just to point out 
that some of the statistics that have been given today, I 
think, are only giving half the story. For instance, Jennifer 
Francis has talked about the decrease in the Arctic sea ice. 
And I know something about that because I am the lead scientist 
on NASA's best instrument for monitoring that decrease in 
Arctic sea ice. But what she did not mention is that Antarctic 
sea ice, over that same 30 year period that we have been 
monitoring, has been increasing.
    So, there are a lot of half truths in this business. You 
can point to some of areas that are changing, some areas that 
are changing in one direction, some that are changing in 
another direction. At some point we have to ask ourselves, is 
all of this just mostly part of what the climate system does 
naturally?
    With that, I will end my testimony.
    [The prepared statement of Mr. Spencer follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Senator Whitehouse. Thank you very much, Dr. Spencer.
    Let me begin my questioning, I think we have time to either 
expand the rounds or have two rounds. How do you want to handle 
this, David?
    Senator Vitter. Could I have two rounds? Because I may have 
to go.
    Senator Whitehouse. OK, we will have two rounds so that I 
may move quickly on.
    Let me start with Dr. Pielke. I take from your testimony 
that we actually have a fair amount in common. As I understand 
it, we agree that climate change is happening, correct? That is 
a yes?
    Mr. Pielke. Yes.
    Senator Whitehouse. And we agree that we should both 
mitigate and adapt in response to that change.
    Mr. Pielke. Yes.
    Senator Whitehouse. And we both find the IPCC reports 
credible?
    Mr. Pielke. Yes.
    Senator Whitehouse. Yes. Can we also agree that a body of 
credible research projects that extreme weather events could 
increase in frequency and intensity due to manmade carbon 
dioxide emissions?
    Mr. Pielke. Yes. That is certainly the case. And if you 
look at the literature, you will find many such projections. 
And I would encourage you take a look at my testimony where we 
actually took climate model output and we asked the question, 
let us assume that it is true. When would we be able to detect 
that signal in, we looked specifically at North Atlantic 
hurricanes?
    And the answer, much to our surprise, and it has been 
replicated now by Kerry Emanuel at MIT with different 
assumptions, it said it is many decades to centuries before we 
can say ah hah, we have seen that signal.
    Now, that does not mean that climate change, we can forget 
about it. What it means is that we have to be very careful 
making strong statements about attribution today because they 
just rest on a very weak foundation.
    Senator Whitehouse. And if you are being a prudent actor 
and looking forward to protecting your children, your 
grandchildren and so forth, it is possible that there could be 
a point, particularly with this issue where we are already 
outside of the bounds that have been, our species boundaries 
for at least 800,000, we have been between 170 and 300 parts 
per million for at least 8,000 centuries and now, poof, we are 
suddenly out, we are at 400 parts per million, it is climbing. 
Is there a point at which it might be wise to anticipate 
behavior rather than wait for its signal to emerge?
    Mr. Pielke. Absolutely. I have written on adaptation for an 
awful long time. And there is a lot of talk now about we are 
entering a new normal. If you take a close look at the 
statistics that I showed you today, one of the concerning 
things is that we are not even at the old normal, the tornadoes 
of the 1950's or the hurricanes of the 1920's or drought of the 
1930's and 1950's. We are not prepared for the old normal. So, 
I think there are a lot of reasons to adapt.
    What I would suggest is, I agree entirely with your 
comments about being prudent and acting on energy policy and 
de-carbonizing, but there are much, much better justifications 
for that action than invoking extreme events. For a group of 
climate, people who want action on climate, to invoke the 
importance of science and then very quickly leave that behind 
and say, this latest disaster, that and so on, they undermine 
their own efforts to advocate for action because it is just not 
supportable.
    Senator Whitehouse. We do know a few things, though, as I 
understand it. We do know that warmer oceans create stronger 
storms because of the extra heat that is thrown up into the 
atmosphere off the warmer oceans. Is that accepted phenomenon?
    Mr. Pielke. Yes. I mean that, independently, is true but at 
the same time there are countervailing forces like wind sheer.
    Senator Whitehouse. I understand. But at least part is 
true.
    Mr. Pielke. Yes, that is absolutely true.
    Senator Whitehouse. And it also true that warmer oceans and 
warmer air carry more moisture and therefore can lead to more 
severe precipitation. That is a known scientific proposition. 
Correct?
    Mr. Pielke. Yes, that is absolutely true.
    Senator Whitehouse. So, when you start to put some of those 
things together, you can start to draw reasonable conclusions 
that if the Gulf of Mexico is considerably warmer and it is on 
the hurricane track, you might want to be careful.
    Mr. Pielke. Absolutely correct. But again, we cannot detect 
that scientifically for decades. My thing is we note that, 
identify it as a risk, and then we move on to talking about 
other basis for action.
    Senator Whitehouse. And it is interesting that a lot of the 
focus of the hearing has been on atmospheric models. I had 
actually hoped to focus on oceans issues and it is not your 
fault that you guys were selected as the Republican witnesses, 
but the other panelists bring a lot of oceans experience and so 
if I am taking you outside of your level of expertise, then 
just let me know.
    But it does strike me that when you compare the atmospheric 
data, you really do have to get into issues of climate modeling 
and people can pick apart the modeling issues. When it comes to 
rising sea levels, when it comes to warmer ocean temperatures 
and when it comes to ocean acidification, we are not talking 
about modeling we are talking about measurement. Is that not 
correct?
    Mr. Pielke. Yes.
    Senator Whitehouse. So, I mean we know that Newport, Rhode 
Island, 10 inches higher in sea level since the 1930's. We know 
that has consequences. We know that Narragansett Bay is four 
degrees warmer, mean water temperature, than it was 30 or 40 
years ago. We know that has caused a lot of valuable fish to 
move out and affected our fisherman in a very unfortunate way.
    Some of these things, once you look at the oceans, become 
much clearer and the signal problem begins to dissipate. Do you 
not agree?
    Mr. Pielke. Yes. I think it is important to separate out 
looking for a signal of climate change, and I would agree with 
many of the witnesses today who said it is unequivocal that 
there is human-caused climate change, from trying to find that 
signal in extreme events.
    Senator Whitehouse. Understood.
    Mr. Pielke. We do not look at extreme events to show 
climate change.
    Senator Whitehouse. I am over my time, so I will come back 
as we will have another round with the time pressure off but I 
do want to yield to the Ranking Member and be courteous.
    Senator Vitter. Thank you, Senator, and thanks to all of 
our panelists. And I want to really continue this discussion 
because I do think it is important that we bring some rigor to 
the discussion and that we be precise. And that also dovetails 
with Dr. Spencer's comments.
    On the one hand the title of the hearing is Climate Change: 
It's Happening Now. Well, I mean, if we take a vote in 
Committee about how many people agree with that, we take a vote 
among the witnesses how many people agree with that, everyone 
will raise their hand, myself included.
    But the suggestion which was in fact stated several times 
by the Chair, by some witnesses, one of the big themes, one of 
the big narratives, is that extreme weather events are 
dramatically increasing as a direct result of human-related 
carbon emission. So again, I think it is important to be 
precise. So, let me focus on that because that is a huge 
narrative in the last several years.
    So Dr. Pielke, since you have focused on that, is there 
evidence that statement is true, extreme weather events are 
dramatically increasing recently for any reason and that if 
they are it is related to carbon and climate change?
    Mr. Pielke. Unfortunately, the phrase extreme weather is 
slippery and general enough to encompass many things and people 
can invoke that statement and imply something that maybe is not 
supported.
    The reality is that with respect to heat waves, as we heard 
earlier, and what has been called extreme precipitation, which 
is a scientific term and often is not what most people would 
think of as extreme precipitation, yes, there has been a 
documented increase in those phenomena and there have been 
attribution that link it to increasing greenhouse gases.
    But when it comes to the most costly visible disasters, 
hurricanes, floods, drought and tornadoes, as I discussed, 
there is not presently attribution or even detection of 
increasing trends with respect to those phenomena. There may be 
in the future, but there is not presently.
    Senator Vitter. OK. And that directly relates to pictures 
of Superstorm Sandy, discussion of Hurricane Katrina, etcetera.
    Let me bring up these charts again because they are yours. 
The data is not yours, but they are from your testimony. And if 
you could just briefly walk us through what each chart 
represents and what do you think it says. So, heat waves.
    Mr. Pielke. That one is not from my testimony.
    Senator Vitter. Oh, sorry, I thought it was. This is, let 
me comment on this. This is EPA data with regard to heat waves 
over many decades. Let us go to the next one. Drought.
    Mr. Pielke. That one also is not from my testimony. I do 
refer to drought but since the IPCC in 2007 came out with its 
report, the community has recognized that the phenomena of 
drought is more complicated than was originally thought and 
there are trends in some places of increasing drought and in 
other places of decreasing drought. But overall, over the 
planet, the conclusion has been that over 60 years there has 
been no trend one way or the other.
    Senator Vitter. OK. Next chart is wildfires.
    Mr. Pielke. Yes, this one does not appear in my testimony 
either. It is very plausible that there could be a signal of 
human-caused climate change in western wildfires in particular. 
There is a number of causal steps in that chain that need to be 
connected and it is logical.
    But doing convincing attribution is made complicated 
because humans have been so deeply interfering with the western 
ecosystems that, according to a recent study and proceedings of 
the National Academy of Sciences, climate and societal behavior 
and fire have all been decoupled over about a century.
    Senator Vitter. OK. And hurricane landfalls in the U.S.?
    Mr. Pielke. Yes, this does come from my testimony. And 
remarkably, over a century, there has actually been a slight 
decrease in the number of hurricane landfalls. Presently, we 
are in the longest stretch with no Category III or stronger 
hurricanes making landfall in the U.S. ever recorded. Now, that 
goes back to 1900 and the data before that is even less. The 
State of Florida is in the longest stretch without being hit by 
a hurricane.
    So, the idea that we are in some sort of enhanced hurricane 
regime sets the stage for setting the false expectations. We 
are not. We have actually been pretty lucky in recent years.
    Senator Vitter. And this is the global equivalent, global 
cyclone landfalls, which is basically hurricanes, typhoons, 
global landfalls, is it the same story basically?
    Mr. Pielke. Yes. That is a study we did where we added up 
all of the landfalls globally and the data is good in 1970 and 
there is no trend globally either.
    Senator Vitter. OK. Thank you very much.
    Senator Whitehouse. Let me ask if any of the other 
witnesses would care to respond to those charts and that data? 
Starting over here at the left. Dr. Francis, do you want to 
share your views?
    Ms. Francis. Sure. There is a lot of information presented 
there. But I think I wanted to reiterate something that Dr. 
Cullen said and that is when you are looking at trends like 
heat waves and droughts and floods, you cannot take an area the 
size of the United States, average over the entire area, and 
then present trends based on that because there are huge 
regional differences. And so, if you average over the East 
being wetter and the West being drier, you get no signal. So, 
what I saw there was an average over the United States. Again, 
that trend does not reflect what is really happening on a 
regional basis.
    In terms of the hurricanes, I am not a hurricane expert. 
But I think focusing on land falling hurricanes also is a 
rather not quite realistic way to go about it because, for 
example, the last 2 years there have been a large, many more 
hurricanes than in a typical year, over the last two summers in 
the Atlantic, and for whatever reason, very few of them 
actually made landfall in the United States. But there were way 
more hurricanes than normal. So, I think the statistics as 
presented there present a rather misleading picture.
    Senator Whitehouse. Let me turn to Dr. Spencer and let me 
first ask a kind of unrelated question, Doctor. Do you believe 
that the theory of creation actually has a much better 
scientific basis than the theory of evolution?
    Mr. Spencer. And why are we going in this direction?
    Senator Whitehouse. Because it is something that you have 
said and I just wanted to see if you still believe it.
    Mr. Spencer. I believe that evolutionary theory is mostly 
religion. It is naturalistic. But my faith is not strong enough 
to believe that everything happened by accident. I mean, there 
is a lot of work out there that has shown that you cannot 
statistically combine all of the elements that are contained in 
a DNA molecule by chance over however many billions of years 
you want to invoke or over how many, how much known universe 
there is with all of the matter in it.
    So what I am saying is some areas of science deal a lot 
more with faith than with known science. And so, I am open to 
alternative explanations.
    Senator Whitehouse. And do you still believe that the 
theory of creation actually has a much better scientific basis 
than the theory of evolution, to be specific?
    Mr. Spencer. I think, I think I could be put into a debate 
with someone on the other side and I think I could give more 
science supporting that life was created than they could 
support with evidence that life evolved through natural, random 
processes. So, yes.
    Senator Whitehouse. OK. In your testimony, you have a graph 
that I think we have seen a lot of versions of during the 
course of the day which shows an average trimmed line, the 
black line, that is the average of all of the other lines which 
are various climate models.
    Mr. Spencer. Yes, those are 73 of the latest IPCC climate 
models.
    Senator Whitehouse. And then you have your own balloon and 
satellite data sets which are indicated by the various marks 
running below.
    Mr. Spencer. Yes. Those big blobs are the observations. 
There is a total of six data sets there, one of which is ours. 
The other five are not ours.
    Senator Whitehouse. And they all come from the tropical 
mid-troposphere?
    Mr. Spencer. Yes, this is all tropical mid-troposphere. 
That is right.
    Senator Whitehouse. So, they are all from the tropics and 
they are all from above 5,000 roughly?
    Mr. Spencer. Well, it is actually a deep layer of the 
atmosphere from the surface to, let us say, 10 or 12 kilometers 
altitude. So, it is a bulk measure of the tropical atmosphere.
    Senator Whitehouse. OK. Let me show you a second graph 
which looks rather similar to it, other side, upside down, and 
was presented to this Committee by Dr. John Christy who, I 
believe, is a collaborator and co-author of yours. Do you 
recognize that?
    Mr. Spencer. Yes.
    Senator Whitehouse. And that shows what appears to be the 
same data set going along the bottom line, the same average, 
but it also shows an additional data set in the middle which 
includes surface temperature readings.
    Mr. Spencer. Yes.
    Senator Whitehouse. And it would appear to me that the 
surface temperature readings, when you add them, are far closer 
to the average than the data set that you selected.
    Mr. Spencer. Yes, the surface temperatures appear to be 
closer. The reason why we emphasize deep tropospheric 
temperatures is because they are not subject to certain kinds 
of errors, for instance urban heat island effects. Also, our 
satellite measurements are the only truly global measurements. 
That is for global. Ours are the only truly global measurements 
because they sample all of the global atmosphere.
    Senator Whitehouse. And then let me show a third graph 
which I think is fairly common in the literature on this that I 
believe was produced by Ed Hawkins at the University of Reading 
that is a common display, I gather, in the scientific 
community. And that shows from an even broader set of data 
sources the match between observed and modeled projections. 
Have you seen that before?
    Mr. Spencer. I have not seen this one.
    Senator Whitehouse. OK. But it is certainly apparent that, 
as you go through those sets, the data set that you have 
selected is the one that is most divergent from the model data 
and that as you add further observations, the trends close 
rather than separate. Correct?
    Mr. Spencer. Oh, Senator, I can turn that around and tell 
you that usually what we see from the IPCC are comparisons 
which are the closest and it takes someone like me to come 
along and say all right, you are not showing all of the data. 
So, we are just trying to give some equal time to the other 
half of the story that is not being told.
    Senator Whitehouse. But you will concede that in this graph 
there is more data than in the data sets, the six data sets 
that you incorporated in your testimony? That is just factual. 
Correct?
    Mr. Spencer. More data? No, I would not concede that.
    Senator Whitehouse. All right. Can I ask Dr. Francis to 
comment on this? Or, I do not know who else would like to.
    Ms. Francis. Sure. I will take a stab at it. So, we who 
have used model output for many years for various things are as 
aware as anyone that they are not perfect. We know they are not 
perfect. But they get the general sense of change correct. Some 
of them do a darned good job and there are variables that, in 
fact, they project are changing slower than the real world. So, 
in fact, they are more conservative than the actual change that 
we observing in the real world.
    This sea ice loss is a classic example. Most of the models 
have, when they are run in hind cast, models looking back at 
the real world and what has happened are not able to capture 
the speed of change of the sea ice loss in the Arctic.
    So, I think it is very possible to look through the model 
output and find problems. But overall the models do an 
amazingly good job of simulating what is an incredibly complex 
system, this climate system that involves the oceans and the 
atmosphere and the ice and the biosphere and the soil moisture 
and coming up with very close representation of what the real 
world has undergone and, of course, into the future there are 
so many assumptions about what is going to happen in terms of 
future emissions of carbon dioxide and future technologies and 
things like that.
    Senator Whitehouse. Now, there has been testimony here that 
we are, and I have said it, I think it is fairly commonly 
knowledge, that we are outside boundaries of carbon 
concentration in our atmosphere that have persisted for 
somewhere between 800,000 and many millions of years. A minimum 
of 800,000 years.
    So, if carbon pollution has forced us outside of those 
boundaries and we are now in unknown territory for our planet 
without going back into geologic times, certainly unknown 
territory for our planet while it has been inhabited by our 
species, it is foreseeable that there is going to be some 
uncertainty about the modeling. We have never been here before, 
have we?
    Ms. Francis. That, it is very possible although the models 
are based on physics, the laws of physics, and the laws of 
physics are not changing. We understand what happens to the 
earth when you increase greenhouse gases. That has been known 
for a hundred years.
    Senator Whitehouse. Generally.
    Ms. Francis. Generally.
    Senator Whitehouse. But if there was a specific short-term 
cooling trend that is driven by changes in the ocean and by the 
changing patterns of the ocean and the current flows and the 
increasing absorption, that is something that 10 or 15 years 
ago would have been a pretty tough thing to try to model 
exactly.
    Ms. Francis. You cannot model it exactly. The models have 
those kinds of variability built into them but to have the 
changes happen in the ocean exactly the same year in the model 
as they happen in the real world, you know that to create these 
model graphs like this they run the same model many times to 
create what they call ensembles because the models have natural 
variability in them just like the real world does. So, each of 
those runs of the model does not necessarily correspond to what 
the real world has done because we only have one run of the 
real world to compare to those.
    Senator Whitehouse. OK, let me interrupt. I see Senator 
Sessions here. I went ahead with Dr. Spencer's testimony but I 
did let him know that you had wanted to be here when his time 
came to introduce him and I will yield to you the time.
    Senator Sessions. The 11, or 10 minutes, that you used.
    Senator Whitehouse. Well, there was nobody else here so I 
figured I was not inconveniencing anybody.
    Senator Sessions. That is all right. But somebody else is 
here now.
    Well, if you just look at that chart it shows that is 
dropping down below the modeling levels. Dr. Spencer, let us 
look at this chart and let us get clear about what the chart 
says.
    The red line does not represent one or two models, does it?
    Mr. Spencer. It represents the average of all of the IPCC 
models included. And I want to emphasize the reason why the 
average is important. The IPCC based its bottom line 
conclusions basically on that average.
    Senator Sessions. OK.
    Mr. Spencer. But the red line represents what the IPCC 
predicts for the future.
    Senator Sessions. So, back in 1995 our, well, in recent 
times the models were predicting a rather continuing increase 
in temperature because CO2 continues to increase in the world 
and whatever other factors they use. That made sense to those 
computer models.
    Mr. Spencer. Well, even Kevin Trenburth who is on the other 
end of the spectrum from me has admitted that we do not know 
why it stopped warming and it is a travesty that we do not 
know.
    If I can return to the chart that Senator Whitehouse 
presented as evidence of supposed agreement between the 
observations, the one behind you, Senator Whitehouse.
    Senator Whitehouse. This one over here? OK.
    Mr. Spencer. Would you admit that chart shows that the 
observations are now approaching the bottom of the full range 
of climate model projections?
    Senator Whitehouse. I think the chart speaks for itself 
and, like this chart, it continues to show rising temperatures, 
maybe not at the level of the average, but that clearly is not 
a flat line from where they depart upwards. It has, it is well 
above the 0.2, it is more than halfway to 0.4, that, to me, is 
an increase, not a decrease.
    Mr. Spencer. And I do not think anyone has claimed that 
there is a zero change. But there is a big difference between a 
tiny change and a huge change. And since we have policies that 
are being discussed that are going to be based on that red 
line, I think we need to consider the possibility that we need 
to go back and figure out what is wrong with the models before 
we start basing policies on models which produce at least two 
times as much warming as we have observed in nature and 
possibly three times as much warming.
    Senator Sessions. Dr. Spencer, you and Dr. Christy, by 
utilizing satellite data, has that not gained respect worldwide 
as a more accurate, a lot of scientists agree that is the best 
way to identify global temperature change?
    Mr. Spencer. Well, we need all of these data sets. We need 
the satellite data set, partly because it is the only truly 
global data set. It also measures up where we can see other 
things happening.
    We think what is going on in the upper atmosphere is that 
is it not warming as fast because something called positive 
water vapor feedback is not happening. Now, these models 
amplify warming, at least twice the warming that occurs in all 
of these climate models is because they increase water vapor 
throughout the whole atmosphere in response to the warming and 
it about doubles the warming. And this lack of warming up in 
the free atmosphere to us suggests that, on these climate 
timescales, there is not positive water vapor feedback or that 
it is very weak.
    So that is one reason why, another reason why, we use the 
satellite data. It tells us more about the climate system than 
just the surface. The surface is just a thin layer six feet 
above the surface and there are so many things that can affect 
that, wind and things. This is a bulk measurement of the heat 
content of the atmosphere that we think has more physical 
meaning for understanding the climate system.
    Senator Sessions. Just to get this straight, the Economist 
said over the past 15 years air temperatures at the earth's 
surface have been flat. Is that disputed? Or is that generally 
accepted today?
    Mr. Spencer. I think it depends on the surface temperature 
data set that they are talking about. There are different, just 
like there are different satellite data sets, there are 
different weather balloon weather sets, there are different 
surface temperature data sets and I think one or more of the 
surface temperature data sets show in the last 10 or 15 years a 
temperature change which is not statistically different from 
zero.
    Maybe there is a light warming, or a slight cooling 
depending on the data set. I am not an expert on all of those. 
But we are mincing words when what we should be emphasizing is 
we are not getting anywhere near the warming that the models 
have predicted. To me, that is the take-home message.
    Senator Sessions. Well, thank you for that. I think it 
should give us cause to analyze and think about that.
    It is pretty obvious also that there are long-term 
variations in temperature that have occurred naturally over the 
centuries. Is that correct?
    Mr. Spencer. Wait. While you were not here, I asked to 
enter into the record this plot of temperatures over the last 
2,000 years which suggests that previous warm periods that our 
current warm period may not be exceptional compared to the 
Medieval Warm Period or the Roman Warm Period. In other words, 
global warming and global cooling happens almost every century.
    Senator Sessions. Well, they happen for some reason and we 
may be finding that CO2 will impact global temperatures. But 
they have been occurring without huge increases in CO2, it 
seems to me.
    Mr. Spencer. Well, I just find it very unscientific for 
scientists to claim that there are these past periods of 
warming which, well, we really do not know what caused them. 
They obviously were not due to people, but the current period 
of warming we know is due to increasing CO2. It just logically 
does not make sense.
    Now theoretically I can admit I do expect some warming from 
CO2. But as I have mentioned, my primary area of research is 
trying to determine exactly how much. And right now the State 
of that science is, I do not think we can say how much of our 
current warmth is due to human CO2 emissions versus natural 
processes.
    Senator Sessions. In one of our last hearings, I do not 
know if you have these numbers in your mind or at hand, but 
earlier the question, the statement was made that we have had 
record high temperatures in the last few years and an unusual 
number of record high temperatures.
    As I understand the data, there are quite many more record 
temperatures during the Dust Bowl times of the 1930's. Is that 
correct?
    Mr. Spencer. Yes, that chart was shown, maybe while you 
were not here, that shows that by far most of the high 
temperature records that were in the United States were set in 
the 1930's. And I do not know what we are doing today so far in 
Washington, DC, but I do not think we are going to hit 103 
degrees today, which is the record high for this date in 
Washington, which was set in 1887.
    Senator Sessions. Well, one of the things that is confusing 
us a bit is they use the Heat Index and the Humidity Index and 
it makes the numbers go up and the Weather Channel's ratings go 
up. We hear all about storms because we hear about every one of 
them.
    But Dr. Pielke, you have just demolished this idea, it 
seems to me, from your research that we are having 
extraordinary increases in storms of all kinds, floods, 
droughts. I remember that Kingston Trio song, they are rioting 
in Africa, they are starving in Spain, the whole world is full 
of strife and Texas needs rain.
    So, what is it, would you comment a little further on your 
finding objectively with regard to storms? I just had the 
numbers from NOAA that shows there has not been an increase but 
really a decline in hurricanes and Dr. Cullen's own statement 
to us that there is no evidence to indicate that EF4, EF5 
tornadoes, like the ones that devastated a large swath of 
Moore, Oklahoma in May, are becoming more frequent or more 
severe. Do you have any comments on that?
    Mr. Pielke. Yes. I will just say that this is one area of 
research and science that really should not be controversial 
because, I mean, hurricanes, you do not miss them. They are big 
and you count them up. It is just math.
    And I said earlier and I will repeat this, if one wants to 
invoke the importance of science in these debates, you are not 
allowed to say, well, I like this science but I do not like 
that science. And the fact of the matter is, the 
Intergovernmental Panel on Climate Change did a big report, 
reported out in 2012, it looked globally at extreme events, and 
summarized these data.
    Now, looking forward, there are projections there may be 
more extreme events. But the good news is, we are monitoring, 
we are detecting, and simply statistically one of the last 
places you would want to look to see the signal of climate 
change is extreme events because they are rare, they do not 
occur all the time, and so it takes a long time to understand 
the statistics.
    To the extent there is large variability, that makes it 
even more difficult. So, I would say that images of Katrina and 
the like, they get a lot of attention and the media focuses on 
it, but it takes the scientific community down a path where 
pretty quickly they depart from what you can say based on data 
and analysis. And that does not help the discussion and it does 
not help, certainly, claims that are supposed to be grounded in 
science.
    Senator Sessions. Thank you, Mr. Chairman. I would just say 
I appreciate Dr. Spencer coming and to the extent to which he 
believes this is a created universe, we share that common 
belief.
    Senator Whitehouse. I am delighted that the witnesses were 
here and I want to thank them for their testimony.
    I do believe that NASA stands by its data that shows that 
the 12 warmest years on record since 1880 all happened in the 
last 15 years. I was not here for the Dust Bowl but certainly 
it happened after 1880 and 12 out of 15 is pretty serious 
information. And I tend to believe that NASA knows what they 
are talking about, particularly when they are driving a rover 
around on the surface of Mars. That is not a small achievement.
    And I would close by noting one other thing which is that 
the discussion in this panel from the Republican side has 
largely been about the atmospheric issues and has largely been 
about the modeling of atmospheric issues and particularly 
looking at tropical tropospheric atmospheric data. And the 
focus of the hearing, I had hoped, was to be on oceans, because 
once you get into the oceans, a lot of modeling issues go away.
    We actually measure ocean acidification. We actually 
measure ocean temperatures. We actually measure sea level rise. 
And if all of the focus is on areas of technical dispute and we 
are blind to what is visibly and measurably happening all 
around us, I think we are going to miss the most important 
signal.
    So, let me pay a particular thank you to the oceans experts 
who came in today and if the other side wants to being oceans 
witnesses at some point, I would be delighted to continue this 
discussion.
    But we really are having two panels. We have got an oceans 
panel, which seems to be pretty unanimous, and we have 
atmospherics and economics panel and I think to me, I am from 
the Ocean State, and it matters a lot to Rhode Island when the 
sea level is 10 inches higher than it was in our last big, big, 
big crusher hurricane. When we get our next one, that is going 
to make a big difference.
    It makes a big difference to me when fishermen cannot catch 
winter flounder any longer in Narragansett Bay because it has 
moved offshore and our lobstermen have to drive twice as far, 
as I think Dr. Leinen mentioned. When these fishermen have to 
drive farther to find their catch, it is not just a fuel burn. 
It is not just an expense. It is not just time. Fishermen have 
a dangerous job. They go out into a dangerous place. And the 
more time they have to spend for their time out on the ocean, 
the more at risk they are.
    So, it is really, really important to Rhode Island that we 
get this right and that we listen to the signals to the ocean.
    Senator Sessions. Can I say one thing in regard to Dr. 
Spencer's background? He was Senior Scientist for Climate 
Studies at NASA's Marshall Space Flight Center. During his 
tenure at the center, he and Dr. John Christy received NASA's 
Exceptional Scientific Achievement Medal for developing 
innovative methods for precise monitoring of earth temperatures 
via earth orbiting satellites which is regarded as a major 
advancement in our ability to monitor climate fluctuations. And 
he has been engaged in a lot of other important scientific 
endeavors.
    Thank you.
    Senator Whitehouse. The Chairman has already announced that 
the hearing record will close at 10 a.m. tomorrow but further 
questions can be in for the usual EPW 2 weeks.
    So with that, I thank the witnesses, I thank those who 
attended and adjourn the hearing.
    [Whereupon, at 1:25 p.m., the committee was adjourned.]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                                 [all]
</pre></body></html>
